APPENDIX

1a
APPENDIX A
_________
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
_________
IN RE AUTOMOBILE ANTITRUST CASES I AND II
_________
A152295
_________
(San Francisco City & County,
JCCP Nos. 4298 & 4303; CJC03004298)
_________
Filed: 09/25/2019
_________
After years of litigation, the sole remaining
defendant in this coordinated antitrust proceeding,
Ford Motor Company of Canada, Ltd. (Ford
Canada), filed in the superior court a request for
entry of judgment on grounds of claim preclusion
and issue preclusion. Ford Canada argued that a
summary judgment entered by a federal court in a
related proceeding precluded the plaintiffs here
(certain purchasers of new automobiles in
California) from pursuing their claims under
California state antitrust and unfair competition
statutes. The superior court agreed that the claim
preclusion doctrine barred plaintiffs’ claims (while
finding that issue preclusion did not apply) and
entered judgment for Ford Canada.

2a
On appeal, plaintiffs contend the superior court
erred in concluding the federal judgment has claimpreclusive effect. Ford Canada counters by arguing
that (1) claim preclusion does apply, and (2) as an
alternative ground for affirmance, issue preclusion
bars plaintiffs from litigating an essential element of
their claims (causation of injury), and the superior
court’s holding to the contrary was error. We
conclude neither claim preclusion nor issue
preclusion applies in the present case because the
plaintiffs here were not parties to the federal
proceeding, and were not in privity with the parties
against whom the judgment in that case was
entered. We therefore reverse the superior court’s
judgment.
I. BACKGROUND
A.

The
Coordinated
California State Court

Proceeding

in

In our opinion addressing a prior appeal in this
matter, we described the underlying litigation: “In
this coordinated proceeding, certain purchasers of
new automobiles in California (plaintiffs) brought
state law claims against a number of automobile
manufacturers and dealer associations under the
Cartwright Act (Bus. & Prof. Code, §§ 16720–16728)
and the unfair competition law (Bus. & Prof. Code,
§§ 17200–17210). Specifically, plaintiffs allege that
defendant manufacturers and associations conspired
to keep lower-priced, yet virtually identical, new cars
from being exported from Canada to the United
States, thereby keeping new vehicle prices in
California higher than they would have been in a
properly competitive market.” (In re Automobile

3a
Antitrust Cases I & II (2016) 1 Cal.App.5th 127, 131
(Automobile Antitrust Cases).)
“This litigation began over a decade ago when, in
early 2003, more than a dozen different lawsuits
were filed in California against various automobile
manufacturers and trade associations, each alleging
state law causes of action for antitrust conspiracy
and unfair business practices and each filed as a
class action on behalf of individuals who purchased
or leased new vehicles in California that were
manufactured or distributed within a certain period
of time by one of the named defendants. The lawsuits
were eventually coordinated into this proceeding.
[Citation.] Thereafter, in October 2003, plaintiffs
filed their consolidated amended class action
complaint, the operative pleading in this matter. In
addition to [Ford Canada], the class action complaint
named numerous other automobile manufacturers
[and two trade organizations] as defendants.”
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at
pp. 132–133, fn. omitted.)
“Plaintiffs—the majority of whom eventually
became class representatives in this litigation—are
George Bell, Wei Cheng, Laurance de Vries, Joshua
Chen, Jason Gabelsberg, Ross Lee, Jeffrey M.
Lohman, Christine Nichols, Local 588 of the United
Food & Commercial Workers Union, Estelle Weyl,
Michael Wilsker, and W. Scott Young. Each plaintiff
alleges an injury caused by one or more of the
defendants.” (Automobile Antitrust Cases, supra, 1
Cal.App.5th at pp. 132–133, fn. 2.) “Plaintiffs filed
their motion for class certification in the instant
matter in the Spring of 2005. Proceedings were
stayed, however, while the parties conducted

4a
extensive coordinated discovery and litigated their
class certification motion in” a related federal
proceeding. (Automobile Antitrust Cases, supra, 1
Cal.App.5th at p. 136.)
B.

The
Federal
Proceeding
Coordination Order

and

the

“In addition [to the California state court
proceeding], a similar lawsuit had been filed in
federal court against many of the same defendants,
alleging violation of federal antitrust laws. (See In re
New Motor Vehicles Canadian Export (D.Me. 2004)
307 F.Supp.2d 136, 137–138 (the federal
multidistrict litigation or federal MDL).) Parallel
cases were also pending in a number of other state
courts. In June 2004, the trial court issued an order,
after consultation with Judge Hornby—the judge in
the federal MDL [sitting in the District of Maine]—
coordinating discovery among this action, the federal
action, and other state actions.” (Automobile
Antitrust Cases, supra, 1 Cal.App.5th at p. 136.)
C.

Proceedings in the Federal District and
Appellate Courts: The Dismissal of the
Federal Claims and the Vacatur of Class
Certification (2004–2008)

In March 2004, Judge Hornby dismissed the
federal antitrust damage claims brought by the
plaintiffs in the federal MDL but declined to dismiss
the federal claims for injunctive relief. (In re New
Motor Vehicles Canadian Export, supra, 307
F.Supp.2d at pp. 136, 137, 141–144.) The federal
plaintiffs then amended their complaint to add
damage claims under the laws of various states,
including California. (In re New Motor Vehicles

5a
Canadian Export Antitrust (D.Me. 2004) 335
F.Supp.2d 126, 127.) In September 2004, Judge
Hornby decided to exercise supplemental jurisdiction
over these state law claims under title 28 United
States Code section 1367. (In re New Motor Vehicles
Canadian Export Antitrust, supra, 335 F.Supp.2d at
pp. 127–128, 132.)
In rulings issued in 2006 and 2007, Judge Hornby
certified a nationwide injunctive class under federal
antitrust law, as well as 20 state damage classes
(including a California class) seeking recovery under
state antitrust and consumer protection statutes. (In
re New Motor Vehicles Canadian Export Antitrust
Litigation (D.Me. Mar. 10, 2006, MDL Docket No.
1532) 2006 WL 623591, pp. *1–*2, *10 [certifying
nationwide injunctive class]; In re New Motor
Vehicles Canadian Export Antitrust Litigation
(D.Me. 2006) 235 F.R.D. 127, 129, 148 [preliminarily
approving certification of five exemplar state damage
classes, including a California class]; In re New
Motor Vehicles Canadian Export Antitrust Litigation
(D.Me. 2007) 241 F.R.D. 77, 78–79, 84 & fn. 11
[concluding certification was appropriate for the five
exemplar states and for 15 additional states]; In re
New Motor Vehicles Canadian Export Antitrust
Litigation (D.Me. 2007) 243 F.R.D. 20, 21–23
[certifying class action and appointing class counsel];
see Automobile Antitrust Cases, supra, 1 Cal.App.5th
at p. 136, fn. 7.) As to the federal court class seeking
damages
under
California
law,
the
class
representatives were Lindsay Medigovich and Parry
Sadoff (the federal California plaintiffs). (In re New
Motor Vehicles Canadian Export Antitrust Litigation,
supra, 243 F.R.D. at p. 23.)

6a
In March 2008, the First Circuit Court of Appeals
reversed Judge Hornby’s certification of the
injunctive class under federal law and ordered
dismissal of the federal claim for injunctive relief. (In
re New Motor Vehicles Canadian Export Antitrust
Litigation (1st Cir. 2008) 522 F.3d 6, 9, 16, 30.) As a
result, no federal claims remained in the case. (Id. at
p. 16.) The First Circuit noted, however, that there
might still be a basis for the federal district court to
exercise jurisdiction over at least some of the state
law damage claims (either diversity jurisdiction
under 28 U.S.C. § 1332 or supplemental jurisdiction
under 28 U.S.C. § 1367). (In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 522
F.3d at pp. 9, 16–17.) The appellate court stated that,
on remand, the district court should consider these
potential grounds for jurisdiction. (Id. at p. 16.)
As to supplemental jurisdiction, the First Circuit
stated: “The district court may . . . consider whether
to exercise its discretion to continue exerting
supplemental jurisdiction, see 28 U.S.C. § 1367, over
the state damages claims,” despite the dismissal of
the federal claims. (In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 522
F.3d at p. 16.) The appellate court stated that, “[i]n
weighing this option, the district court should
consider ‘the totality of the attendant circumstances,’
including considerations of judicial economy, fairness
to the parties, and the nature of the applicable state
law.” (Ibid.)
Because there was a potential basis for jurisdiction
over the state law claims, the First Circuit reviewed
the order certifying the state damage classes. (In re
New Motor Vehicles Canadian Export Antitrust

7a
Litigation, supra, 522 F.3d at pp. 9, 17.) The
appellate court vacated that certification order and
stated that, on remand, the district court could
reconsider whether to certify state law damage
classes in light of principles outlined in the appellate
court’s opinion and a more fully developed record.
(Id. at pp. 9, 16, 29–30.)
D.

Subsequent Proceedings in the Federal
District Court (2008–2009)

On remand, Judge Hornby addressed whether he
should continue to exercise supplemental jurisdiction
over the state law damage claims under 28 United
States Code section 1367. (In re New Motor Vehicles
Canadian Export Antitrust Litigation (D.Me., Apr.
29, 2008, MDL Docket No. 1532) 2008 WL 1924993,
pp. *1–*2.) In an April 2008 order following a
conference with counsel, Judge Hornby stated the
parties agreed he should exercise supplemental
jurisdiction over the claims brought under the laws
of 15 of the 20 states at issue.1 (In re New Motor
Vehicles Canadian Export Antitrust Litigation,
supra, 2008 WL 1924993, p. *2.) But as to the
remaining five states (including California), where
parallel class actions were pending in state court, the
parties took differing positions. (Ibid.) The plaintiffs
argued Judge Hornby should decline to assert
supplemental jurisdiction, while the defendants
argued judicial economy supported the continued
exercise of jurisdiction over all the cases pending in
1

The parties agreed diversity jurisdiction was unavailable
except as to one Nebraska case. (In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 2008 WL
1924993, p. *1.)

8a
federal court.2 (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 2008 WL
1924993, p. *2.)
In his April 2008 order, Judge Hornby concluded
“that at this time the prudent course is to exercise
supplemental jurisdiction over all the state law
claims pending in this Court.” (In re New Motor
Vehicles Canadian Export Antitrust Litigation,
supra, 2008 WL 1924993, p. *2.) In reaching this
decision, Judge Hornby noted that briefing on
defense summary judgment motions was underway,
and that he would have to examine the factual record
and expert opinions to resolve those motions. (Id. at
pp. *1–*2.) “Thus, there is efficiency in using that
record familiarity to resolve the summary judgment
issues here as to all the states rather than require
other judges to duplicate that effort.” (Id. at p. *2.)
One year later, however, in an April 2009 opinion,
Judge Hornby revisited the question of whether to
resolve the claims brought under California law by
the federal California plaintiffs, Lindsay Medigovich
and Parry Sadoff. (In re New Motor Vehicles
Canadian Export Antitrust Litigation (D.Me. 2009)
609 F.Supp.2d 104, 106–107.) By that time, discovery
was complete, a class certification motion by some of
the federal plaintiffs had been refiled and rebriefed,
2

According to a case management conference statement
subsequently filed in the California state court proceedings,
counsel for the California state court plaintiffs appeared at the
April 2008 conference in the federal action and (consistent with
the position taken by counsel for the federal court plaintiffs)
asked Judge Hornby not to continue to exercise supplemental
jurisdiction over the California law claims pending in federal
court.

9a
and summary judgment motions had been filed,
briefed and argued. (Id. at p. 105.) Counsel for the
federal California plaintiffs, however, had decided
not to renew their request for certification of a
California class in federal court. (Ibid.) Also, the
federal California plaintiffs, Medigovich and Sadoff,
had filed a motion to dismiss their claims without
prejudice. 3 (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 609 F.Supp.2d at
p. 106.)
Judge Hornby granted the motion over the
defendants’ objection. (In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 609
F.Supp.2d at pp. 106– 107.) Noting that rule 41 of
the Federal Rules of Civil Procedure (28 U.S.C.)
required court approval for the voluntary dismissal
in light of the advanced stage of the federal
proceeding, Judge Hornby concluded dismissal was
appropriate under the circumstances. (In re New
Motor Vehicles Canadian Export Antitrust Litigation,
supra, 609 F.Supp.2d at pp. 106–107.) In reaching
this conclusion, Judge Hornby relied in part on the
supplemental jurisdiction statute, 28 United States
Code section 1367, which provides that “[federal]
district courts may decline to exercise supplemental
jurisdiction over a [state law] claim . . . if . . . [¶] . . .
the claim raises a novel or complex issue of [s]tate
law.” (28 U.S.C. § 1367(c)(1); see In re New Motor
Vehicles Canadian Export Antitrust Litigation,
supra, 609 F.Supp.2d at p. 107.)

3

The federal California plaintiffs had filed this motion
several months earlier, and defendants filed an opposition in
August 2008.

10a
Judge Hornby concluded the claims before him
raised a novel or complex issue of California state
law, specifically the question of how a plaintiff may
prove antitrust causation or injury in an indirect
purchaser case. (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 609 F.Supp.2d at
p. 107.) Judge Hornby had initially ruled (at an
earlier phase of the case) “that, unlike some other
states, California law allows a presumption of
antitrust injury to an indirect purchaser once the
plaintiff proves the antitrust conspiracy,” which “is a
critical element in this indirect purchaser case.”
(Ibid.) Judge Hornby noted, however, that the
California Supreme Court had not definitively
resolved this question, and the parties disagreed as
to the correct interpretation of the existing case law
on the point. (Ibid.)
Judge Hornby decided it would be preferable for
the California state courts to resolve this issue. He
stated: “How to prove antitrust causation or injury in
this indirect purchaser case is central to decisions on
both class certification and liability. I conclude that
it makes most sense to have that issue decided in
California where it can be appealed to the California
Supreme Court for a final and definitive resolution.
My decision on the issue here is likely to contribute
to confusion over the status of California law on the
subject, and an appeal to the First Circuit cannot
provide the definitive resolution that the California
Supreme Court can.” (In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 609
F.Supp.2d at p. 107.) Judge Hornby therefore
revisited his initial decision to exercise supplemental
jurisdiction over the California claims and granted

11a
the motion by Medigovich and Sadoff to dismiss
those claims without prejudice. (Ibid.)
In July 2009, Judge Hornby granted summary
judgment for defendants as to the remaining
plaintiffs’ claims under the laws of 19 states. (In re
New Motor Vehicles Canadian Export Antitrust
Litigation (2009) 632 F.Supp.2d 42, 45, 63.) Judge
Hornby concluded the plaintiffs could not prove the
element of causation, i.e., that the alleged conspiracy
had caused “antitrust (or consumer protection)
injury” by raising the prices paid by consumers for
new vehicles. (Id. at pp. 45–47; see id. at p. 56.)
Specifically, applying principles set forth in the First
Circuit’s
earlier
opinion
addressing
class
certification, Judge Hornby determined the plaintiffs
could not prove that every transaction sales price
was affected by the alleged conspiracy. (Id. at pp. 58–
59, 63.) This was true under the laws of each of the
19 states at issue, all of which required affirmative
proof of causation. (Id. at p. 63.) Judge Hornby did
not determine what the result would be under
California law (with its “shifting presumption” as to
injury), because, in light of the dismissal of the
federal California plaintiffs’ claims a few months
earlier, California was “no longer in the mix.” (Ibid.)
Following issuance of his summary judgment order,
Judge Hornby entered judgment for the remaining
defendants in the federal case (i.e., the defendants
that had not settled or filed for bankruptcy
protection), including both Ford Motor Company
(Ford U.S.) and Ford Canada.

12a
E.

Class
Certification
and
Summary
Judgment Proceedings in the California
Superior Court and the Subsequent
Appeal to this Court (2009–2016)

In May 2009, the trial court in the present
California state court proceeding (Judge Kramer,
who previously had stayed class certification
proceedings pending developments in the federal
case) granted the plaintiffs’ motion for class
certification. (Automobile Antitrust Cases, supra, 1
Cal.App.5th at p. 136.) The certified class included
persons who purchased or leased new automobiles in
California between 2001 and 2003.
Between 2010 and 2012, the parties litigated
summary judgment motions in the trial court.
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at
pp. 137–140.) By May 2011, as a result of
settlements, bankruptcies and summary judgment
rulings, the only remaining defendants were Ford
U.S. and Ford Canada. (Id. at pp. 137–139.) In
November 2011, Judge Kramer granted summary
judgment in favor of Ford U.S. and Ford Canada,
concluding plaintiffs had not presented sufficient
evidence that these defendants participated in an
unlawful conspiracy. (Id. at p. 140.) Plaintiffs
appealed the ensuing judgment to this court. 4
4

At some point during this time period, the then-remaining
defendants, including Ford U.S. and Ford Canada, filed a joint
motion for summary judgment on the issue of antitrust impact.
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at p. 137, fn.
9.) That motion was fully briefed but was not then argued or
decided by the trial court. (Ibid.) The defendants did not file a
motion during this period arguing the federal court’s 2009
summary judgment decision had preclusive effect.

13a
(Automobile Antitrust Cases, supra, 1 Cal.App.5th at
p. 140.) In 2016, this court affirmed the judgment for
Ford U.S. but reversed and remanded as to Ford
Canada, concluding triable issues of material fact
precluded summary judgment on the question
whether Ford Canada participated in an unlawful
conspiracy. (Id. at pp. 172–173.)
F.

Subsequent Proceedings in the Superior
Court (2016–2017)

On remand, the trial court (Judge Karnow, to
whom the case had been reassigned) conducted
further proceedings between plaintiffs and the sole
remaining defendant, Ford Canada. In May 2017,
Judge Karnow denied Ford Canada’s pending motion
for summary judgment on the issue of antitrust
injury or causation (initially filed in 2010 by multiple
defendants). In reaching his conclusion that a triable
issue of fact existed on causation, Judge Karnow
focused primarily on the expert and other evidence
submitted by plaintiffs, as well as Ford Canada’s
attacks on the opinions of plaintiffs’ expert. As to the
governing legal standards, Judge Karnow referred to
Judge Hornby’s July 2009 decision addressing
causation and injury, but Judge Karnow stated that
California law “may not be in accord” with the First
Circuit standards applied by Judge Hornby,
specifically because California law may provide for a
presumption of injury once there is proof of an
unlawful conspiracy.
In April 2017, Ford Canada filed a motion for entry
of judgment, arguing that, under principles of claim
preclusion and issue preclusion, Judge Hornby’s
2009 summary judgment in the federal action barred
the plaintiffs in this action from pursuing their

14a
claims. Ford Canada argued (1) the two proceedings
involved the same claims, and (2) the plaintiffs in the
present action were in privity with the plaintiffs in
the federal action. As to issue preclusion, Ford
Canada contended Judge Hornby had resolved the
issue of antitrust injury or causation, precluding the
California state court plaintiffs from litigating that
issue.
After receiving briefing and holding a hearing,
Judge Karnow granted Ford Canada’s motion in
June 2017. Judge Karnow concluded that, for
purposes of claim preclusion, the California and
federal actions involved the same “cause of action”
because they alleged the same harm, i.e., the
plaintiffs paid higher prices for vehicles as a result of
Ford Canada’s illegal conduct. Judge Karnow also
held the plaintiffs in the present California state
court action were in privity with the plaintiffs in the
federal proceeding. He therefore granted summary
judgment on the basis of claim preclusion.
Although he did not need to reach the question,
Judge Karnow also addressed issue preclusion (the
alternative basis for Ford Canada’s motion) and
concluded Judge Hornby’s ruling as to causation did
not meet the requirements of the issue preclusion
doctrine. While Judge Hornby had decided the
federal plaintiffs could not prove causation of injury,
Judge Karnow found California law “follows a
different standard” on that issue because it allows an
inference or presumption of injury once a plaintiff
proves the existence of an unlawful conspiracy.
Because the federal court “decided the causation
issue on a standard of proof different than what
might apply in this state court, the specific issue of

15a
causation was not litigated and decided in the prior
proceeding,” so issue preclusion did not apply.
Judge Karnow entered judgment for Ford Canada.5
Plaintiffs appealed.
G.

Preclusion Rulings by Courts in Other
States

As noted, in addition to the federal action, which by
July 2009 involved plaintiffs asserting claims under
the antitrust and consumer protection laws of 19
states (In re New Motor Vehicles Canadian Export
Antitrust Litigation, supra, 632 F.Supp.2d at p. 45,
fn. 2), similar cases were pending in the courts of
several states. (See Automobile Antitrust Cases,
supra, 1 Cal.App.5th at p. 136.) Between 2010 and
2018, trial courts in five states—Minnesota, Arizona,
Tennessee, New Mexico and Wisconsin—granted
motions finding the federal judgment had preclusive
effect and barred the parallel actions before them.6
5

The judgment entered by Judge Karnow in 2017 recites the
definition of the plaintiff class previously certified by Judge
Kramer and states that “[p]laintiffs” will take nothing from
Ford Canada. The parties interpret Judge Karnow’s judgment
as a ruling that both the named plaintiffs and all members of
the certified class in this action are bound by the 2009 federal
court judgment.
6

The written rulings of the Minnesota and Arizona trial
courts (issued in 2010 and 2011) are in the record, as they were
submitted to Judge Karnow as exhibits to Ford Canada’s 2017
motion for entry of judgment. We grant Ford Canada’s request
that we take judicial notice of the rulings of the Tennessee, New
Mexico and Wisconsin trial courts (issued in 2017 and 2018).
We also grant Ford Canada’s request that we take judicial
notice of certain documents filed in the federal action. We
previously granted similar judicial notice requests filed by
plaintiffs.

16a
(Lerfald
v.
General
Motors
Corporation
(Minn.Dist.Ct., Sep. 16, 2010, No. 27-CV-03-3327)
(Lerfald); Maxwell v. General Motors Corporation
(Ariz.Super.Ct., Mar. 2, 2011, CV 2003-003925)
(Maxwell); Johnson v. General Motors Corporation
(Tenn.Dist.Ct., June 12, 2017, C.A. No. 35028)
(Johnson I); Corso v. General Motors Corporation
(N.M.Dist.Ct., Jan. 19, 2018, D-101-CV-2003-00668)
(Corso); Rasmussen v. General Motors Corporation
(Wisc.Circ.Ct., Mar. 19, 2018, 03-CV-001828)
(Rasmussen).) The Tennessee trial court’s ruling was
affirmed by that state’s Court of Appeals. (Johnson v.
General Motors Corporation (Tenn.App. 2018) 574
S.W.3d 347, 352–356 (Johnson II).)
Unlike California, each of the above five states was
among the 19 whose laws were at issue when Judge
Hornby granted summary judgment in the federal
action in 2009. (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 632 F.Supp.2d at
p. 45, fn. 2, 46, 56, 63 & fn. 30.)
II. DISCUSSION
We review a trial court’s dismissal on preclusion
grounds de novo as an issue of law. (Noble v. Draper
(2008) 160 Cal.App.4th 1, 10.) Under the doctrines of
claim preclusion and issue preclusion (collectively
referred to as “res judicata”), a final judgment
prevents successive litigation of certain claims and
issues in later proceedings. (Taylor v. Sturgell (2008)
553 U.S. 880, 892 (Taylor); People v. Barragan (2004)
32 Cal.4th 236, 252–253 (Barragan).) While issue
preclusion “applies only to issues that were actually
litigated,” claim preclusion applies “more broadly to
what could have been litigated.” (Guerrero v.

17a
Department of Corrections & Rehabilitation (2018) 28
Cal.App.5th 1091, 1098 (Guerrero).)
Application of the claim preclusion and issue
preclusion doctrines prevents parties “ ‘from
contesting matters that they have had a full and fair
opportunity to litigate[.]’ ” (Taylor, supra, 553 U.S. at
p. 892; see Guerrero, supra, 28 Cal.App.5th at p.
1098.) In Taylor, the United States Supreme Court
noted: “A person who was not a party to a suit
generally has not had a ‘full and fair opportunity to
litigate’ the claims and issues settled in that suit.”
(Taylor, supra, 553 U.S. at p. 892.) Accordingly, the
“general rule” is that a person who was not a party to
a prior action is not bound by the judgment entered
in that case, subject to certain recognized
“exceptions,” which collectively are sometimes
referred to as establishing “privity” between the
nonparty and a party to the prior action.7 (Taylor,
7

In addressing this issue, the Taylor court applied (1) the
“federal common law of preclusion” (because the prior judgment
at issue there was entered by a federal court in a federal
question case) (Taylor, supra, 553 U.S. at p. 891; see id. at p.
904; see also Guerrero, supra, 28 Cal.App.5th at p. 1101), and
(2) “due process limitations” that define the maximum reach of
nonparty preclusion (Taylor, supra, at p. 891; see id. at pp. 896–
898, 900–901). The parties here contend state preclusion law
should play a role in determining the preclusive effect of Judge
Hornby’s 2009 federal court judgment, with plaintiffs urging
application of Maine law and Ford Canada arguing for
California law. But as to the question of “privity” or “nonparty
preclusion” (see Taylor, supra, 553 U.S. at p. 894, fn. 8), neither
party argues, and the trial court did not hold, that state law
permits nonparty preclusion here on any ground beyond the
“exceptions” recognized in Taylor. We therefore focus on the
applicability of those exceptions and do not address the parties’
choice-of-law arguments.

18a
supra, 553 U.S. at p. 893; see id. at p. 894, fn. 8;
accord, Barragan, supra, 32 Cal.4th at p. 253 [a
prerequisite to applying claim preclusion or issue
preclusion is that “ ‘the party against whom the
doctrine is being asserted was a party or in privity
with a party to the prior proceeding’ ”].)
The plaintiffs in the present case were not parties
to the federal proceeding. Ford Canada, however,
argued in the trial court, and contends in its
appellate brief, that two exceptions to the general
rule against nonparty preclusion recognized in
Taylor apply here, specifically (1) an exception
allowing preclusion when a nonparty was
“ ‘adequately represented’ ” by someone who was a
party to the prior suit (Taylor, supra, 553 U.S. at pp.
894–895), and (2) an exception permitting preclusion
when a nonparty “ ‘assume[d] control’ ” over the prior
action (id. at p. 895). We agree with plaintiffs that
Ford Canada did not establish the applicability of
either exception. (See Taylor, supra, 553 U.S. at pp.
906–907 [party who asserts claim or issue preclusion
applies must establish all necessary elements]; Hong
Sang Market, Inc. v. Peng (2018) 20 Cal.App.5th 474,
489 [same].)
A.

Adequate Representation

In Taylor, the Supreme Court stated that, “ ‘in
certain limited circumstances,’ a nonparty may be
bound by a judgment because she was ‘adequately
represented by someone with the same interests who
[wa]s a party’ to the suit. [Citation.] Representative
suits with preclusive effect on nonparties include
properly conducted class actions, [citation], and suits
brought by trustees, guardians, and other

19a
fiduciaries, [citation].” (Taylor, supra, 553 U.S. at pp.
894–895.)
Due process principles limit the circumstances in
which representation may be found to be “adequate”
for purposes of nonparty preclusion. (Taylor, supra,
553 U.S. at pp. 896–898, 900–901.) Specifically, “[a]
party’s representation of a nonparty is ‘adequate’ for
preclusion purposes only if, at a minimum: (1) The
interests of the nonparty and her representative are
aligned, [citation]; and (2) either the party
understood herself to be acting in a representative
capacity or the original court took care to protect the
interests of the nonparty, [citation]. In addition,
adequate representation sometimes requires (3)
notice of the original suit to the persons alleged to
have been represented, [citation].” (Taylor, supra,
553 U.S. at p. 900.)
When Judge Hornby entered judgment for
defendants in 2009, there were no certified classes in
the federal action. (See In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 632
F.Supp.2d at p. 63.) And none of the individual
plaintiffs remaining in the federal case was pursuing
claims under California law. (Ibid.) The question
presented thus is whether the individual plaintiffs
advancing claims under the laws of other states (the
federal non-California plaintiffs)—the losing parties
to
the
federal
court
judgment—adequately
represented the California state court plaintiffs and
class members.
Judge Karnow, relying in part on decisions by some
of the other state courts that have considered the
preclusion question since the 2009 entry of the

20a
federal court judgment, found the Taylor test for
adequate representation was met here.8 We disagree.
1.

Alignment of Interests

As to the prerequisite element of aligned interests,
it is true the interests of the federal court plaintiffs
and the California state court plaintiffs were aligned
in the basic sense that the two groups did not have
opposing interests. (Cf. Hansberry v. Lee (1940) 311
U.S. 32, 43–44 (Hansberry) [no preclusion where
relevant groups of property owners had conflicting
interests], cited in Taylor, supra, 553 U.S. at p. 900.)
Both groups of plaintiffs sought to establish that the
defendant auto manufacturers conspired to keep
lower-priced cars from being exported from Canada
to the United States, resulting in higher vehicle
prices. (See Automobile Antitrust Cases, supra, 1
Cal.App.5th at p. 131; In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 632
F.Supp.2d at p. 45.) And due to the coordination of
8

Judge Karnow considered the issue of “adequate
representation” as one component of a test of privity articulated
in a California appellate decision, Citizens for Open Access etc.
Tide, Inc. v. Seadrift Assn. (1998) 60 Cal.App.4th 1053, 1070, but
he relied on the United States Supreme Court’s decision in
Taylor as establishing the minimum requirements for a finding
of adequate representation. An additional element of the privity
test stated in Citizens for Open Access and applied by Judge
Karnow is a requirement that “ ‘ “[t]he circumstances [were] such
that the nonparty should reasonably have expected to be bound
by the prior adjudication.” ’ ” (Citizens for Open Access, supra, 60
Cal.App.4th at p. 1070.) Since we find the essential element of
adequate representation as defined in Taylor was not established
here, we do not address the parties’ arguments as to whether
the additional requirement pertaining to reasonable
expectations was met.

21a
discovery, the same body of evidence apparently was
available to both sets of plaintiffs.
Of course, the showing of aligned interests here is
weaker than in the other state courts that have
addressed this question, all of which relied in part on
the fact that the two sets of plaintiffs at issue were
advancing identical state law claims. (See Johnson
II, supra, 574 S.W.3d at pp. 351, 353 [same
Tennessee statutes at issue in federal and state
cases]; Rasmussen, supra, at pp. 17–18 [federal and
Wisconsin state-court plaintiffs asserted the “same
claims”]; Corso, supra, at p. 6 [federal and state cases
involved alleged “violations of the same New Mexico
statutes”]; Johnson I, supra, at pp. 5–6 [claims in
federal and Tennessee state court were the same];
Maxwell, supra, at p. 4 [both sets of plaintiffs relied
on same Arizona statute]; Lerfald, supra, at p. 4
[federal and state plaintiffs asserted claims under
same Minnesota statute].)
That factor is not present here—none of the
plaintiffs against whom summary judgment was
entered in the federal action asserted any claims
under California state law.9 We need not determine,
however, whether the absence of that factor
precludes a finding of aligned interests, because we
conclude below that the second essential element of
the Taylor test for adequate representation—“either
the party understood herself to be acting in a
representative capacity or the original court took
9

Judge Karnow noted this issue but found it was not
significant because “the elements for proving antitrust claims are
the same across the states.” As noted, however, he concluded
later in his opinion that California applies a different standard of
proof as to the causation element.

22a
care to protect the interests of the nonparty” (Taylor,
supra, 553 U.S. at p. 900)—was not established here.
2.

Representative Capacity or Protection of
Interests
a.

Representative Capacity

Ford Canada did not meet its burden to show the
federal court plaintiffs asserting claims under the
laws of states other than California (the parties to
the summary judgment) understood they were acting
as representatives of the named California state
court plaintiffs or the members of the California
state court class (i.e., persons who purchased
vehicles in California). As discussed, no certified
classes existed in the federal action when the
summary judgment was entered, so it is not clear the
individual federal court plaintiffs could have believed
they were representing anyone else at that point.
(See Taylor, supra, 553 U.S. at pp. 894–895
[adequate representation exception is typified by
class actions]; Corso, supra, at p. 7 [New Mexico trial
court concludes that, because federal classes were
“never properly certified,” federal plaintiffs “could
not have thought their actions were as class
representatives”].)
More to the point for our purposes, the remaining
federal court plaintiffs had never even purported to
serve as representatives for any California vehicle
purchasers seeking damages flowing from the
alleged conspiracy. The certified classes that existed
earlier in the federal proceeding included a separate
damage class for each involved state, with different
class representatives. (See In re New Motor Vehicles
Canadian Export Antitrust Litigation, supra, 243

23a
F.R.D. at pp. 21–23.) The plaintiffs who remained in
federal court when summary judgment was entered
could not have brought claims under California law.10
The evidence cited by Ford Canada on this point
(some of which Judge Karnow also cited) does not
establish the federal non-California plaintiffs
understood they were acting in a representative
capacity with respect to the California state court
plaintiffs. Ford Canada points to the discovery
coordination order entered in 2004 by the federal and
state courts, which, to reduce duplication of expense
and effort, designated the federal action the “lead
case for discovery and discovery-related pretrial
scheduling” and allowed parties in the state court
proceedings to participate in discovery in the federal
action. (Italics added.) The order does not state or
suggest that a party to a state court case will be
bound by the federal court’s non-discovery rulings in
the absence of a certified federal court class.
Ford Canada also notes the attorneys for the
plaintiffs in the federal and state actions entered
what one of them described as a “joint prosecution
agreement” that was “intended to protect the
interests of all plaintiffs.” The agreement itself
apparently was kept confidential and is not in the
record, but statements made by counsel in the trial
10

We note that some of the state courts that gave Judge
Hornby’s summary judgment decision preclusive effect
distinguished the California plaintiffs’ situation on this basis.
(See Corso, supra, at p. 8 [noting federal court plaintiffs
asserting claims under New Mexico law did not seek dismissal
from the federal action, unlike the federal California plaintiffs];
Maxwell, supra, at p. 5 [Arizona]; Lerfald, supra, at p. 6
[Minnesota].)

24a
court suggest it addresses such matters as
coordination of discovery and expert preparation. We
cannot conclude from this evidence that there was an
agreement by the federal court plaintiffs to represent
the state court plaintiffs. Nor does the participation
of California state court counsel in other joint
activities, such as settlement discussions with some
defendants, establish that one group of plaintiffs
represented the other.
b.

Court’s Protection of Nonparty’s
Interests

Ford Canada also did not establish that, for
purposes of nonparty preclusion, “the original court
took care to protect the interests of the nonparty”
(Taylor, supra, 553 U.S. at p. 900). On this point,
Judge Karnow noted that Judge Hornby “sent
updates to state judges to keep them informed of
developments in the federal action.” Ford Canada
also mentions these updates, as well as referring
again to the coordination of discovery that we have
discussed above.
Those factors do not provide a basis for nonparty
preclusion here. The way Judge Hornby sought to
protect the interests of the California plaintiffs was
to carve out and dismiss the California-law claims
from the federal case because, in his view, California
law differed from that of the other involved states
and it would be preferable for the California state
courts to resolve unique and unsettled questions of
California law. (In re New Motor Vehicles Canadian
Export Antitrust Litigation, supra, 609 F.Supp.2d at
p. 107.) To now rely on Judge Hornby’s actions as a
basis for precluding the California plaintiffs from

25a
pursuing their claims in state court would stand that
ruling on its head.
We note that, when Taylor referred to protection of
interests by the prior court as a path to showing
adequate representation (see Taylor, supra, 553 U.S.
at pp. 896, 900), it cited Richards v. Jefferson County
(1996) 517 U.S. 793, 801–802, which in turn cited
Hansberry, supra, 311 U.S. at p. 43. The Richards
court stated: “Our opinion [in Hansberry] explained
that a prior proceeding, to have binding effect on
absent parties, would at least have to be ‘so devised
and applied as to insure that those present are of the
same class as those absent and that the litigation is
so conducted as to insure the full and fair
consideration of the common issue.’ ” (Richards,
supra, 517 U.S. at p. 801, italics added, citing
Hansberry, supra, 311 U.S. at p. 43; see Richards,
supra, 517 U.S. at p. 802.) As discussed, Judge
Hornby took an approach that did not include full
consideration of the federal California plaintiffs’
claims. As to the pivotal question of antitrust injury
presented on summary judgment, he decided not to
determine what California law provides. (In re New
Motor Vehicles Canadian Export Antitrust Litigation,
supra, 609 F.Supp.2d at p. 107.) There is no basis for
preclusion.
3.

Notice

Because the essential second element of the Taylor
test for adequate representation has not been
established here, we need not address the third
element specified in Taylor, i.e., the extent to which
notice of the federal action was required, and
whether adequate notice was provided to the

26a
California state court plaintiffs and class members
here. (See Taylor, supra, 553 U.S. at p. 900.)
B.

Control

Apart from adequate representation, Ford Canada
briefly invokes another exception noted in Taylor
that allows preclusion when a nonparty “ ‘assume[d]
control’ ” over the prior action (Taylor, supra, 553
U.S. at p. 895). Judge Karnow did not rely on this
control exception as a separate ground for applying
claim preclusion, although he stated (as part of his
discussion of the parties’ expectations) that
“[p]laintiffs’ counsel here had a financial interest in
and controlled the conduct of the federal litigation,
suggesting their clients should have expected to be
bound by the result there.” We hold the control
exception does not provide a basis for preclusion here
because Ford Canada did not show the California
state-court plaintiffs controlled the federal action.
In Montana v. United States (1979) 440 U.S. 147
(Montana) (cited by Taylor, supra, 553 U.S. at p. 895
as the basis for this exception), the plaintiff in the
second case, the United States, had exercised
extensive control over the first action. (Montana,
supra, 440 U.S. at p. 155.) Specifically, the United
States required the first action to be filed, reviewed
and approved the complaint in that action, paid the
attorneys’ fees and costs, and directed the conduct of
the appeal taken in the first case. (Ibid.) In contrast,
Ford Canada has pointed to no evidence in the record
showing the California state court plaintiffs (much
less the members of the California class) assumed
control over the federal action, such as by directing
the federal court plaintiffs as to the steps they
should take in advancing the litigation.

27a
Instead, Ford Canada relies again on the fact that
counsel for the plaintiffs in the federal and state
actions cooperated pursuant to a joint prosecution
agreement. We are not persuaded that such
cooperation establishes that the plaintiffs in each
case controlled the prosecution of the other actions.
We note that, even within the group of federal court
plaintiffs, different courses of action were sometimes
taken, such as the decision by the federal California
plaintiffs to seek dismissal of their claims, while
other federal court plaintiffs proceeded to summary
judgment. To the extent some of the state courts
addressing this issue found a sufficient degree of
control in these circumstances, we respectfully
disagree with their conclusions. (See Johnson II,
supra, 574 S.W.3d at p. 355 [Tennessee]; Rasmussen,
supra, at p. 25 [Wisconsin]; Lerfald, supra, at p. 4
[Minnesota]; but see Corso, supra, at pp. 4–5 [New
Mexico court finds no control]; Maxwell, supra, at p.
4 [Arizona court finds no control].)
Finally, we do not agree with Ford Canada that
Aronow v. Lacroix (1990) 219 Cal.App.3d 1039
supports a finding that plaintiffs here are precluded
on a freestanding control theory. In Aronow, the
appellate court discussed whether a party before it
(Aronow) had exercised control over a prior action,
but did so in the context of assessing whether
Aronow reasonably should expect to be bound by the
prior judgment (id. at pp. 1050–1051), and only after
determining a party to the prior action had
adequately represented Aronow’s interests, which
the court held was a requirement of due process (id.
at pp. 1049–1050). In that context, the Aronow court
noted control did not have to be complete (id. at p.

28a
1050) and stated Aronow “at least had the power to
suggest courses of action” in the prior case (id. at pp.
1050–1051). We do not read Aronow as establishing
that a nonparty’s ability to suggest courses of action
to a party in a prior case, without more and without
a showing of adequate representation, is enough to
bind the nonparty to the result in the prior case.11
Because the essential element of privity is missing,
neither claim preclusion (the basis for Judge
Karnow’s ruling) nor issue preclusion (the
alternative ground for affirmance urged by Ford
Canada) applies here. (See Taylor, supra, 553 U.S. at
pp. 893, 894, fn. 8; Barragan, supra, 32 Cal.4th at p.
253.) We therefore will reverse the judgment.12
III. DISPOSITION
The judgment in favor of Ford Canada is reversed.
The matter is remanded to the trial court with
directions to enter an order denying Ford Canada’s
request for entry of judgment. Plaintiffs shall recover
their costs on appeal.

11

Because Ford Canada did not show the California state
court plaintiffs exercised sufficient control over the federal
action to provide a basis for preclusion, we do not address
plaintiffs’ argument that the Taylor control exception can only
support issue preclusion, not claim preclusion. (See Montana,
supra, 440 U.S. at p. 154.)
12

Since we reverse on the grounds discussed in the text, we
do not address plaintiffs’ other asserted grounds for reversal,
including their arguments that (1) principles of waiver and
judicial estoppel bar Ford Canada from invoking claim and
issue preclusion, (2) the federal and California actions involved
different causes of action, and (3) constitutional or statutory
provisions limit the application of preclusion doctrine here.

29a

STREETER, Acting P.J.

We concur:

TUCHER, J.

BROWN, J.

30a
APPENDIX B
_________
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FOUR
_________
IN RE AUTOMOBILE ANTITRUST CASES I AND II
_________
A152295
_________
(City & County of San Francisco Super. Ct. Nos.
JCCP Nos. 4298 & 4303; CJC03004298)
_________
Filed: 10/23/2019
_________
ORDER MODIFYING OPINION AND DENYING
REQUEST FOR REHEARING [NO CHANGE IN
JUDGMENT]
_________
BY THE COURT:
It is ordered that the opinion filed herein on
September 25, 2019, be modified as follows:
1. On page 20, before the paragraph that begins
“Finally, we do not agree,” a new paragraph
shall be added that reads as follows:
In a rehearing petition, Ford Canada argues
that, under comment a to section 39 of the
Restatement Second of Judgments, a nonparty
controls litigation whenever it has “ ‘ “the

31a
opportunity to present proofs and argument.” ’ ”
But comment a uses the quoted language in
setting forth the “Rationale” for the control
theory of preclusion. (Rest.2d Judgments, § 39,
com. a, p. 382.) Assuming but not deciding that
the theory of nonparty control applies at all to
claim preclusion—comment b suggests that it
applies only to issue preclusion (see Rest.2d
Judgments, § 39, com. b, pp. 383–384)—
comment c states the test for control (see
Rest.2d Judgments, § 39, com. c, p. 384
[“Elements of control”]), and on this record Ford
Canada does not meet the test. According to
comment c, to have control a nonparty must
have “effective choice as to the legal theories
and proofs to be advanced in behalf of the party
to the action” (although the choices can be in the
hands of counsel and shared with others) and
“must also have control over the opportunity to
obtain review.” (Ibid.) Control is a “question of
fact” (ibid.), and we reject Ford Canada’s
assertion it was “conclusively” established here.
We are not persuaded the evidence of
coordination among counsel establishes the
California plaintiffs had effective choice as to
the legal theories and proofs to be advanced in
the federal proceeding. And Ford Canada does
not contend the California plaintiffs had control
over whether the federal plaintiffs sought
appellate review of the federal court’s summary
judgment order.
2. Footnote 11 on page 20 shall be deleted.

32a
The modifications effect no change in the judgment.
Respondent’s petition for rehearing is denied.
(Streeter, Acting P.J., Tucher, J., and Brown, J.
participated in the decision.)

Dated: October 23 , 2019

A152295

Streeter, J. Acting P. J.

33a
APPENDIX C
_________
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SAN FRANCISCO
_________
COORDINATION PROCEEDING SPECIAL TITLE
(CAL. R. CT. 1550(B))
AUTOMOBILE ANTITRUST CASES I, II
THIS DOCUMENT RELATES TO:
ALL ACTIONS
_________
J.C.C.P. No. 4298
CJC-03-004298
_________
Filed: June 16, 2017
_________
ORDER GRANTING DEFENDANT’S MOTION
FOR ENTRY OF JUDGMENT
_________
My Order Denying Summary Judgment entered
May 16, 2017 provides background for the present
motion to have me enter judgment1 on the basis of
1

The present motion is not titled one for judgment on the
pleadings, for example, but no party has complained about the
nature of the motion, or disputed that if Ford Canada is right
on the merits of the arguments presented, it is entitled to
judgment now. See e.g., Bucur v. Ahmad, 244 Cal. App. 4th 175
(2016) (motion for judgment on the pleadings permissible on res
judicata grounds).

34a
claim and issue preclusion, based on the related
federal MDL action. See In re New Motor Vehicles
Canadian Export Antitrust Litigation, 609 F. Supp.
2d 104 (D.Me. 2009). I heard argument June 15,
2017.
These coordinated cases were filed at roughly the
same time as a related federal case, In re New Motor
Vehicles Canadian Export Antitrust Litigation, 632
F. Supp. 2d 42 (D.Me. 2009) (Hornby, J.). The federal
case included indirect purchaser claims under
various state laws, including California’s Cartwright
Act. See Kuntz Dec. Ex. 1 ¶¶ 93, 116. For years,
commencing around 2004, the state and federal cases
were litigated together, using the federal case as the
lead case. In 2009, just before the federal court
decided a summary judgment motion brought by
defendants, but after the briefing and argument on it
was complete—done by the lawyers here and on
behalf of plaintiffs here—the California plaintiffs
moved to voluntarily dismiss their California law
claims under FRCP 41. See In re New Motor Vehicles
Canadian Export Antitrust Litigation, 609 F. Supp.
2d 104 (D.Me. 2009). Judge Hornby ordered the
requested dismissal (without prejudice). Id. at 107.
Judge Hornby then granted Ford Canada’s motion
for summary judgment on the remaining state law
claims, finding that the plaintiffs were unable to
prove causation. In re New Motor Vehicles, 632 F.
Supp. 2d at 63. Ford Canada now brings this motion
for entry of judgment to dismiss the coordinated
California suits on res judicata and collateral
estoppel grounds.
The motion is granted.

35a
Waiver
Plaintiffs tell me Ford Canada has waived the
defense of res judicata because it was not timely
raised. The federal action was dismissed and became
final in 2009; this motion some 8 years later is thus
untimely, plaintiffs suggest. But there is no
authority for this position. There is no argument
actually related to the elements of waiver. Compare
e.g., DRG/Beverly Hills, Ltd. v. Chopstix Dim Sum
Cafe & Takeout III, Ltd., 30 Cal. App. 4th 54, 59
(1994) (“Waiver is the intentional relinquishment of
a known right after full knowledge of the facts and
depends upon the intention of one party only.”).
Res Judicata
Although some opinions employ the term ‘res
judicata’ to cover both claim and issue preclusion,
e.g., People v. Barragan, 32 Cal. 4th 326, 252-53
(2004), it may be more useful to separate these
doctrines. See generally, Bucur v. Ahmad, 244 Cal.
App. 4th 175, 185 (2016); Daniels v. Select Portfolio
Servicing, Inc., 246 Cal. App. 4th 1150, 1163-64
(2016); DKN Holdings LLC v. Faerber, 61 Cal. 4th
813, 824 (2015).
Under California law, “ ‘ “[t]he doctrine of res
judicata gives certain conclusive effect to a
former judgment in subsequent litigation
involving the same controversy.” ’ ” (Boeken v.
Philip Morris USA, Inc. (2010) 48 Cal.4th 788,
797, 108 Cal.Rptr.3d 806, 230 P.3d 342.) “Res
judicata precludes the relitigation of a cause of
action only if (1) the decision in the prior
proceeding is final and on the merits; (2) the
present action is on the same cause of action

36a
as the prior proceeding; and (3) the parties in
the present action or parties in privity with
them were parties to the prior proceeding.”
(Zevnik v. Superior Court (2008) 159
Cal.App.4th 76, 82, 70 Cal.Rptr.3d 817.) Res
judicata bars the litigation not only of issues
that were actually litigated in the prior
proceeding, but also issues that could have
been litigated in that proceeding. (Busick v.
Workmen’s Comp. Appeals Bd. (1972) 7 Cal.3d
967, 975, 104 Cal.Rptr. 42, 500 P.2d 1386.) “A
predictable doctrine of res judicata benefits
both the parties and the courts because it
‘seeks to curtail multiple litigation causing
vexation and expense to the parties and
wasted effort and expense in judicial
administration.’ ” (Mycogen Corp. v. Monsanto
Co. (2002) 28 Cal.4th 888, 897, 123
Cal.Rptr.2d 432, 51 P.3d 297.)
Franceschi v. Franchise Tax Bd., 1 Cal. App.
5th 247, 257 (2016).
As Franceschi notes, where, as here, “an action is
filed in a California state court and the defendant
claims the suit is barred by a final federal judgment,
California law will determine” the res judicata effect.
Id. (One impact of this is that a federal judge’s views
of that effect are not conclusive, an issue I address
below.)
Final judgment on the merits
The parties do not dispute that there is a final
judgment on the merits in the federal matter.
Compare Boccardo v. Safeway Stores, Inc., 134 Cal.

37a
App. 3d 1037, 1042 (1982). Summary judgment was
granted on the basis that plaintiffs failed to establish
violation of antitrust and consumer protection
statutes. In re Motor Vehicles, 632 F. Supp. 2d at 45.
Same cause of action
“For the purposes of res judicata, California defines
a cause of action according to the ‘primary right,
theory: the violation of a single primary right
constitutes a single cause of action even though it
may entitle the injured party to diverse forms of
relief.” Boccardo v. Safeway Stores, Inc., 134 Cal.
App. 3d 1037, 1043 (1982) (citing Wulfjen v. Dolton,
24 Cal. 2d 891, 89596 (1944)). “A ‘cause of action’ is
based upon the harm suffered, as opposed to the
particular theory asserted by the litigant.” Id (citing
Slater v. Blackwood, 15 Cal. 3d 791, 795 (1975)). See
also Franceschi, 1 Cal. App. 5th at 257.
The state action and the federal action arise out of
identical factual circumstances. Compare, e.g.,
Consolidated Amended Class Action Complaint (CC)
¶¶ 63-89 with Kuntz Dec. Ex. 1 ¶¶ 42-68. The claims
in the federal case were those based on 19 state
antitrust and consumer protection statutes that
allow indirect purchasers to recover relief. In re New
Motor Vehicles, 632 F. Supp. 2d at 44. The claims in
the state case are based on California’s antitrust and
consumer protection statutes, and the Cartwright
Act (which serves as the predicate for violation of the
Unfair Competition Law). CC ¶¶ 97-115. The harm
alleged in both cases is that plaintiffs suffered
damages when they had to pay more to purchase
their vehicles than they would have absent
defendant’s illegal conduct. CC ¶ 96; Kuntz Dec. Ex.

38a
1 ¶ 69. See e.g., Boccardo 134 Cal. App. 3d at 1043
(“The primary right alleged to have been violated in
the instant case is appellants’ right to be free from
economic injury caused by an unlawful conspiracy to
fix meat prices”).
The federal and state cases involve the same cause
of action.
Impact of Supplemental Jurisdiction
While plaintiffs’ opposition does not directly take
on the ‘same cause of action’ element of the res
judicata test, they do make an argument that Judge
Hornby’s express exclusion of the California state
cases from his order on summary judgment blocks
what would otherwise be the effect of res judicata.
Opposition at 5 et seq. This is based on the notion
that when a federal court declines in its discretion to
take a state claim under doctrines of pendant or
supplemental jurisdiction,2 claim preclusion does not
apply. RESTATEMENT (SECOND) OF JUDGMENTS § 26
(1)(b) & comm. b (1982); Boccardo v. Safeway Stores,
Inc., 134 Cal. App. 3d 1037, 1047 (1982).
Ford Canada correctly notes that plaintiffs’
primary authority, Louie v. BFS Retail &
Commercial Operations, LLC, 178 Cal. App. 4th
1544, 1553 (2009) does not help, because there the
parties expressly reserved issues for the state court
(here by contrast Ford Canada fought against the
FRCP 41 dismissal without prejudice). Indeed, Louie
2

Charles Alan Wright, et al., FEDERAL PRACTICE & PROCEDURE,
“Jurisdiction And Related Matters” § 3567.3 (3d ed. 2017)
(“supplemental” jurisdiction doctrines developed separately in
case law as “pendent” and “ancillary” jurisdiction).

39a
patently disclaimed ruling on the res judicata issue.
Id. (“we need not address all these points....”).
Plaintiffs have two other cases, as well, but both
have been distinguished:
Appellant’s reliance on Craig v. County of Los
Angeles (1990) 221 Cal.App.3d 1294 [271
Cal.Rptr. 82], and Merry v. Coast Community
College Dist. (1979) 97 Cal.App.3d 214 [158
Cal.Rptr. 603] is misplaced. In those cases the
federal and state claims did not involve the
same primary right. Moreover, the plaintiff in
each case abandoned the federal lawsuit after
the federal court declined to hear the state law
claims.
Acuna v. Regents of Univ. of California, 56 Cal. App.
4th 639, 650 (1997). See also City of Simi Valley v.
Superior Court, 111 Cal. App. 4th 1077, 1084 (2003)
(where same primary right involved, res judicata
applies). The relatively recent opinion in Franceschi
phrases the legal test thusly:
The rule in California is that “ ‘[i]f ... the court
in the first action would clearly not have had
jurisdiction to entertain the omitted theory or
ground (or, having jurisdiction, would clearly
have declined to exercise it as a matter of
discretion), then a second action in a
competent court presenting the omitted theory
or ground should be held not precluded.’ ”
[Citations]
Franceschi v. Franchise Tax Bd., 1 Cal. App. 5th 247,
260 (2016), citing among things RESTATEMENT
(SECOND) OF JUDGMENTS § 25. Here, the federal court

40a
did the opposite—it entertained the state claims. 3
Thereafter, as in Franceschi, plaintiffs here
“deliberately elected not to pursue” their state claims
in the federal litigation. 1 Cal. App. 5th at 263.
The fundamental rule as discussed at some length
in Franceschi is that when the doctrine of primary
rights identifies a cause of action litigated in federal
court with that proposed to be later litigated in state
court, res judicata bars the latter claim. Plaintiffs
can ask the federal judge to keep the state claims to
ensure they are not later barred, 1 Cal. App. 5th at
263-64, but they cannot split the cause of action; that
is, they cannot, through the expedient of having the
federal court dismiss their claims at their behest, try
the same cause of action again in another forum.4
I conclude that the federal court’s actions on
accepting the California state cases and later
granting plaintiff’s motion to dismiss them does not
impact the ‘same cause of action’ analysis.
Same parties or parties in privity
The lawyers here were the lawyers in the federal
case, for years, through the entire briefing of and
argument on the ultimate summary judgment
motion.5 Every step in the federal litigation—up to
3

True, at plaintiffs’ request it dismissed the California cases
without prejudice, an issue I return to below.
4

Charles Alan Wright, et al., 18 FEDERAL PRACTICE &
PROCEDURE § 4412 “Claim Preclusion—Limitations of First
Proceedings,” (3d ed. 2017) (plaintiffs should invoke federal court’s
supplemental jurisdiction on pain of res judicata bar [after federal
adjudication] if the state claims are brought in state court).
5

Transcript of Argument of June 15, 2017 (rough) at 13. This is
not contested by plaintiffs.

41a
the moment, after argument on the summary
judgment motion, that the California plaintiffs
secured their dismissal—was taken on behalf of
interests identical as between the plaintiffs in this
case and those in the federal case.
Because “[p]rivity is not susceptible of a neat
definition . . . the determination of privity depends
upon the fairness of binding appellant with the
result obtained in earlier proceedings in which it did
not participate.” Citizens for Open Access to Sand &
Tide, Inc. v. Seadrift Assn., 60 Cal. App. 4th 1053,
1070 (1998) (internal quotation marks and citations
omitted). So we ask if (1) the nonparty had an
identity or community of interest with, and adequate
representation by, the party in the first action, and
(2) the circumstances were such that the nonparty
should reasonably have expected to be bound by the
prior adjudication. Id.
a) Adequate
interest

representation

or

community

of

The Supreme Court has held that for preclusion
purposes, there is adequate representation by a
party of a nonparty if, at a minimum, “(1) The
interests of the nonparty and her representative are
aligned, and (2) either the party understood herself
to be acting in a representative capacity or the
original court took care to protect the interests of the
nonparty.” Taylor v. Sturgell 553 U.S. 880, 990
(2008). Adequate representation may also require
“(3) notice of the original suit to the persons alleged
to have been represented.” Id. Plaintiffs contend that
there was no adequate representation because the
non-California federal plaintiffs did not sue on behalf
of any California consumers, made no claims

42a
pertaining to California consumers, and asserted no
claims under California law. Opposition at 10. Of
course, if the federal plaintiffs had sued on behalf of
California consumers, making claims on their behalf
and asserting claims under California law—then we
would have had the identical parties in both cases;
obviating a privity enquiry. The fact that the parties
are not identical cannot be held to show that the
parties are not in privity.
After the federal summary judgment, other state
courts found privity with the federal plaintiffs. Kuntz
Dec. Ex. 10 at 3-6, and Ex. 11 at 2-6.
Aligned interests. The Arizona court found, for
example, that the federal and state plaintiffs’
interests were aligned, based on several factors: they
made the same claims under the same state statute
against the same defendants, based on the same
legal theory and record, coordinated discovery6, and
shared costs and fees. Kuntz Dec. Ex. 11 at 4.
Plaintiffs’ counsel appeared in the federal action and
were part of a joint prosecution agreement which
was intended to protect the interests of all plaintiffs.
Id at 5. Except for asserting claims under the same
state statute, all of the other factors are present for
the California plaintiffs. Although no California state
law claim remained in the federal action, the
elements for proving antitrust claims are the same
across the states. In re New Motor Vehicles, 632 F.
Supp. 2d at 46-47, 63.

6

As did all federal plaintiffs prior to the motion for summary
judgment, in a Joint Coordination Order. In re New Motor
Vehicles, 609 F. Supp. 2d at 106.

43a
Representative capacity. The Arizona court found
that the federal plaintiffs clearly understood
themselves to be acting in a representative capacity,
because plaintiffs’ counsel appeared on plaintiffs’
behalf in the federal action, and were part of a joint
prosecution agreement intended to protect the
interests of all plaintiffs. Kuntz Dec. Ex. 11 at 5. This
shows that plaintiffs’ counsel was involved in
coordination with federal plaintiffs in how the
federal action was conducted. Id Again, the same
factors apply to the California plaintiffs. Their
counsel was also part of the federal joint prosecution
agreement—plaintiffs’ counsel chaired the Executive
Committee and led the federal prosecution. MPA at
17. As Ford Canada points out, this shows more than
just passive knowledge or assurance that the
California plaintiffs’ interests would be protected. Id.
For the same reasons, the California plaintiffs also
had notice of the original suit.
Court protected interests. Finally, it is clear that
Judge Hornby took care to protect the interests of
nonparty state plaintiffs. He sent updates to state
judges to keep them informed of developments in the
federal action. MPA at 18.
b) Reasonable expectation to be bound
It is entirely clear, and after oral argument
conceded, that at least up to April 2009 the
California plaintiffs expected to be bound by the
decisions of the federal court. 7 Indeed, had Judge
Hornby refused their FRCP 41 motion to dismiss,
they well knew they would have been bound by his
rulings. The double twist here is that they were
7

Transcript, above n.5, at 30, 32, 36, 40.

44a
dismissed and Judge Hornby himself was under the
impression that this would allow plaintiffs to proceed
in California state court. Judge Hornby stated that
any “judgment in the defendants’ favor in this court
on the California state law claims will not have
collateral estoppel in the California lawsuit as to
anyone other than these two individual plaintiffs[8]
. . . . A judgment here will have no binding effect on
whether to certify a class in California state court
and no effect on summary judgment there as to other
California indirect purchasers.” In re New Motor
Vehicles, 609 F. Supp. 2d at 106. This view is dicta,
but plaintiffs tout it as pretty good evidence of what
a “reasonable expectation” was at the time. But the
issue is ultimately one of state law, and Judge
Hornby may or may not be familiar with this state’s
peculiar primary rights doctrine9 which girds its res
judicata doctrine; and his views must give way to the
views of our courts of appeal on what makes for a
“reasonable expectation to be bound.”
8

There were only two California plaintiffs named in the federal
action.
9

The doctrine is entirely notorious. Perhaps its first mention,
probably of a concept distinct from that in play today, is Leese v.
Clark, 18 Cal. 535, 559 (1861). Around the time it became fully
embraced in California, one commentator wrote “primary right,
which is apparently thought of as a simple and precise thing, turns
out to be complex and indefinite. It means what the person using
the term makes it mean” O. L. McCaskill, “Actions and Causes of
Action,” 34 Yale L.J. 614 (1925), quoting Clark, The Code Cause of
Action, 33 Yale L.J. 817, 826 (1924). More recently our Supreme
Court noted that “the primary right theory is notoriously uncertain
in application. `Despite the flat acceptance of the ... theory ... by
California decisions, the meaning of ‘cause of action’ remains
elusive and subject to frequent dispute and misconception.”‘
Baral v. Schnitt, 1 Cal. 5th 376, 395 (2016) (citations omitted).

45a
For example, a “‘nonparty should reasonably be
expected to be bound if he had in reality contested
the prior action even if he did not make a formal
appearance,’” Rodgers v. Sargent Controls &
Aerospace, 136 Cal. App. 4th 82, 92 (2006). Some
plaintiffs here actually did contest the prior action:
they filed an opposition brief, argued the summary
judgment motion, and took part in each step in the
federal case up to that. Plaintiffs’ counsel here had a
financial interest in and controlled the conduct of the
federal litigation, suggesting their clients should
have expected to be bound by the result there.
Aronow v. Lacroix, 219 Cal. App. 3d 1039, 1050
(1990).
The issue is often phrased as one of due process,
Mooney v. Caspari, 138 Cal. App. 4th 704, 718
(2006), and the questions is thusly posed, is it fair to
deem present plaintiffs practically speaking
represented in the prior action? In effect, were the
“same legal rights” being litigated? Citizens for Open
Access to Sand & Tide, Inc. v. Seadrift Ass’n, 60 Cal.
App. 4th 1053, 1069 (1998).
At least through argument on summary judgment,
the legal rights and interests were indisputably
identical. The only means by which one could argue
otherwise would be to shift to the moment after the
FRCP 41 dismissal, and note that California law, as
such, was not ultimately adjudicated by Judge
Hornby; i.e., his summary judgment order did not
address the California claims as such. This is the
approach plaintiffs take. Opposition at 10 et seq.10
10

See also, Transcript, above n.5 at 40. This position with its
focus on specific aspects of a cause of action, may be an artefact
of conflating claim and issue preclusion; in the latter, under the

46a
The pitch is that because as of the FRCP 41
withdrawal no federal plaintiffs cared about issues or
legal theories unique to California state law claims,
none of those federal plaintiffs could be relied on,
thereafter, to protect the interests of the California
plaintiffs.
But to rely on this to defeat res judicata would be
an end run around the primary rights analysis set
out above. True, Judge Hornby’s orders did not
determine aspects of California law (such as this
state’s
apparent
presumption
regarding
11
damages )—but these are irrelevant to the analysis
of whether the same cause of action exists in two
courts. 12 In short, the only way one would not
reasonably expect to be bound would be because one
had failed to employ the primary rights analysis in
one’s understanding of res judicata.
Privity is, in the end, a matter of the relationships
between litigants. That relationship did not change
as a result of the FRCP 41 order: as they had been
through argument on the summary judgment

doctrine of collateral estopple, actual litigation of the issue is
required; but not, of course, under res judicata claim preclusion.
Daniels v. Select Portfolio Servicing, Inc., 246 Cal. App. 4th
1150, 1164 (2016); Lucido v. Superior Court, 51 Ca1.3d 335, 341
(1990).
11

B.W.I. Custom Kitchen v. Owens-Illinois, Inc., 191 Cal. App.
3d 1341, 1350-51 (1987).
12

That is, it doesn’t matter what the forms of relief sought or
theories of liability are. Boeken v. Philip Morris USA, Inc., 48
Cal. 4th 788, 798 (2010); Boccardo v. Safeway Stores, Inc., 134
Cal. App. 3d 1037, 1043 (1982). See generally, RESTATEMENT
(SECOND) OF JUDGMENTS § 25 & comm. a (1982).

47a
motion, the parties, and their lawyers, were pressing
the same legal interests.
A final word on plaintiffs’ use of Judge Hornby’s
FRCP 41 dismissal and his view that it did not
preclude subsequent California suit. The 1982
Restatement does help plaintiffs’ view, as it states
that claim splitting is allowed if the “court in the
first action has expressly reserved the plaintiffs right
to maintain the second action....” RESTATEMENT
(SECOND) OF JUDGMENTS § 26 (1.982) (1)(b) & comm.
b. But in the end, it is the second court—this state
court, in this instance—that decides the preclusive
effect of the first judgment. Louie, 178 Cal. App. 4th
at 1560 (“the federal court conducting the class
action “cannot predetermine the res judicata effect of
the judgment. This effect can be tested only in a
subsequent action.” [Citations; internal quotes
omitted]). There is non-California authority that the
first court nevertheless has the power to limit (as
opposed to expand) the preclusive effect of its
judgment,13 as signaled by e.g., a dismissal “without
prejudice.” But our courts have nevertheless found
res judicata effect of a dismissal “without prejudice”.
E.g. City of Simi Valley v. Superior Court, 111 Cal.
App. 4th 1077, 1079 (2003) (first court “dismissed the
state causes of action (wrongful death and violation
of state constitution) without prejudice.”). The
rationale behind these lines of authority appear to be
a concern that litigants be afforded a meaningful
opportunity to litigate the claims. E.g., Teamsters
Local 282 Pension Trust Fund v. Angelos, 762 F.2d
13

E.g., In re Engle Cases, No. 3:09-CV-10000-J-32, 2009 WL
9119991, at *12 (M.D. Fla. Nov. 27, 2009.

48a
522, 525 (7th Cir. 1985). Here, they were afforded
that opportunity: all the way though argument on
the summary judgment motion in federal court; until
they voluntarily decided to abandon that forum.
In the end, the main purpose of res judicata is to
protect not just defendants subject to repeat
litigation, 14 but also more generally to inhibit
“multiple litigation causing vexation and expense to
the parties and wasted effort and expense in judicial
administration.” 15 These purposes would be
frustrated if courts were to allow plaintiffs, at their
option, to leave a forum where they have a full
opportunity to litigate all their claims, have that case
go to final judgment, and yet have plaintiffs then
engage in further suits on the same cause of action.
I conclude that res judicata bars litigation of this
case.
Issue Preclusion
While I need not reach issue preclusion or
collateral estopple, to assist full appellate review16 I
provide my views. Ford Canada argues that the
causation issue is the subject of collateral estopple.
Issue preclusion prohibits the relitigation of
issues argued and decided in a previous case,
even if the second suit raises different causes
of action . . . . [I]ssue preclusion applies: (1)
14

RESTATEMENT (SECOND) OF JUDGMENTS § 26 comm. a.

15

Mycogen Corp. v. Monsanto Co., 28 Cal. 4th 888, 897 (2002)
(emphases in original, citation and internal quotes omitted).
16

This may inflate the significance of a trial judge’s views, as
appellate review is probably de novo. Noble v. Draper, 160 Cal.
App. 4th 1, 10 (2008).

49a
after final adjudication (2) of an identical issue
(3) actually litigated and necessarily decided
in the first suit and (4) asserted against one
who was a party in the first suit or one in
privity with that party.
DKN Holdings, 61 Cal. 4th at 824 (2015)
(internal citations omitted).
1. As noted above, we have a final adjudication.
2. The ‘identical issues’ factor looks at whether
there are “identical factual allegations” in the two
proceedings, and “not whether the ultimate issues or
dispositions are the same.” Lucido v. Super. Ct., 51
Cal. 3d 335, 342 (1990). As noted, the factual
allegations regarding causation are substantially the
same.
3. Here, collateral estopple is asserted against a
party in the first (federal) suit.
4. While causation was actually decided in the
federal action, collateral estoppel is not permissible if
the earlier findings were subject to a different
standard of proof. Wimsatt v. Beverly Hills Weight
etc. International, Inc., 32 Cal. App. 4th 1511, 152324 (1995).
In the federal action, plaintiffs’ evidence did not
satisfy their burden of proving antitrust impact
(specifically, that the alleged illegal agreements
affected the price that each putative class member
paid for a vehicle). In re New Motor Vehicles, 632 F.
Supp. 2d at 63. The federal plaintiffs were required
to overcome two hurdles to show causation. First,
they had to show defendants’ action resulted in an
increase in dealer invoice prices and MSRPs in the
United States. This in turn depended on (1) a
showing that there was “a flood of significantly

50a
lower-priced Canadian cars coming across the border
for resale in the United States during times of
arbitrage opportunities, enough cars to cause
manufacturers to take steps to protect the American
market from this competition by decreasing
nationally set prices,” and (2) distinguishing between
“the effects of any permissible vertical restraints
from the effects of the alleged, impermissible
horizontal conspiracy.” And second, plaintiffs had to
show each member of the class was in fact injured.
Id. at 51-52. The First Circuit expressly pointed out
that any inference or intuition that any upward
pressure on national pricing would raise prices paid
by individual consumers was “not enough.” Id. at 52.
Based on this guidance, Judge Hornby found that the
plaintiffs did not have enough evidence to show that
every member of the putative class was injured by
paying a higher transaction price—there was no
independent evidence of common proof of impact on
transaction prices, and plaintiff’s expert Dr. Hall
could only infer that changes in list price were
passed on to car buyers. Id. at 56, 62-63.
California law follows a different standard. In
granting summary judgment, Judge Hornby
acknowledged the distinction, noting: “My reasoning
and conclusion do not differentiate between the
nineteen states. California, the easiest case for the
plaintiffs’ burden because of a shifting presumption
(as I said in my certification order), is no longer in
the mix . . . . Each of the other nineteen states
requires affirmative proof of causation.” In re New
Motor Vehicles, 632 F. Supp. 2d at 63. In my Order
denying Ford Canada’s motion for summary
judgment, I found California plaintiffs might prevail

51a
on the issue of causation. Order (entered May 16,
2017) at 13. This is because California courts “have
shown no hesitancy in ruling that when a conspiracy
to fix prices has been proven and plaintiffs have
established they purchased the price-fixed goods or
services, the jury can infer plaintiffs were damaged.”
B.W.I. Custom Kitchen v. Owens-Illinois, Inc., 191
Cal. App. 3d 1341, 1350-51 (emphasis in original);
Order (entered May 16, 2017) at 9. “[I]mpact will be
presumed once a plaintiff demonstrates the existence
of an unlawful conspiracy that had the effect of
stabilizing, maintaining or establishing product
prices beyond competitive levels.” B.W.I., 191 Cal.
App. 3d at 1351 (emphasis added).
Thus because the federal action decided the
causation issue on a standard of proof different than
what might apply in this state court, the specific
issue of causation was not litigated and decided in
the prior proceeding and collateral estopple does not
apply.
Conclusion
The motion is granted. Ford Canada should now
prepare a form of judgment and provide it to me with
any plaintiff’s comments as to form.

Dated: June 16, 2017

/s/
Curtis E.A. Karnow
Judge Of The Superior Court

52a
APPENDIX D
_________
SUPREME COURT OF CALIFORNIA
_________
Results from the petition conference of
1/02/2020
_________
The following list reflects cases on which the court
acted at the most recent conference. Set out first are
those on which the court (1) acted concerning a
petition for rehearing and/or a request for
modification of opinion (or elected to modify on its
own motion); (2) acted on a petition for transfer; (3)
granted a petition for review or a request to answer a
question of state law; (4) issued an order to show
cause or alternative writ in an original writ matter;
(5) acted on a motion for publication or depublication
(or elected to do so on its own motion); (6) dismissed
a matter that had been “held” in light of a final
“lead” case; (7) transferred for reconsideration a
matter that had been held in light of a final lead
case; (8) acted on the merits of a Commission on
Judicial Performance disciplinary matter; (9) acted
on a State Bar disciplinary matter; (10) referred to
the State Bar a public accusation against any
attorney; (11) acted on a clemency matter; and (12)
acted on any matter as to which a dissenting justice
wishes to be noted. After reporting the disposition of
these matters, all matters that were denied by the
court are listed in alphabetical order.
Notes: The “Results” column below shows only
abbreviated descriptions of action taken. For the full
and official result, review the matter on Supreme

53a
Court’s docket through the Appellate Courts
Information page. Any person or entity also may
register for a Supreme Court E-mail notification to
receive prompt email alerts about any official action
in any individual matter that is pending before the
court.
Title

Case #

CA #

Action
Type

Result

* * *
IN RE
AUTOMOBILE
ANTITRUST
CASES I
AND II

S258963

A152295

* * *

Petition for
Review

Denied

54a
APPENDIX E
_________
STATE OF WISCONSIN
CIRCUIT COURT
CIVIL DIVISION, BRANCH 3
MILWAUKEE COUNTY
_________
DAVID RASMUSSEN, ET AL.,
Plaintiffs,
v.
GENERAL MOTORS CORPORATION, ET AL.,
Defendants.
_________
Case No. 03-CV-001828
Money Judgment - 30301
_________
Filed: 03-19-2018
_________
FINAL ORDER FOR ENTRY OF JUDGMENT
_________
This matter came before the Court on December 5,
2017 on the Motion for Entry of Judgment on res
judicata grounds filed by the remaining defendants,
Ford Motor Company and Ford Motor Company of
Canada, Limited (“Ford”) and DaimlerChrysler
Canada Inc. (now known as FCA Canada, Inc.)
(collectively, the “defendants”). Being fully advised in
the premises and having considered the Motion, the
parties’ briefing and submissions, and the arguments
of counsel, and for the reasons stated on the record in
the Court’s Oral Ruling on March 2, 2018,

55a
IT IS HERE BY ORDERED AND ADJUDGED
THAT:
1. The defendants’ Motion for Entry of Judgment
in their favor and against the plaintiffs is
GRANTED; and
2. This action is DISMISSED with prejudice and
without costs or fees to any party.
This is a final order that disposes of the entire
matter in litigation before the Court and is intended
by the Court to be a final order for purposes of
appeal within the meaning of Wisconsin Stat.
§ 808.03(1). However, the Court is informed that the
plaintiffs have waived their right to appeal.
Dated this 19th day of March, 2018.
BY THE COURT:
Electronically signed by
Clare L. Fiorenza-03
Circuit Court Judge

56a
STATE OF WISCONSIN
CIRCUIT COURT
CIVIL DIVISION, BRANCH 3
MILWAUKEE COUNTY
_________
DAVID RASMUSSEN, ET AL.,
Plaintiffs,
v.
GENERAL MOTORS CORPORATION, ET AL.,
Defendants.
_________
Case No. 2003-CV-001828
_________
Filed: 03-20-2018
_________
ORAL RULING
_________
Date:

March 2, 2018

Time:

10:18 a.m. – 11:07 a.m.
Before the
Honorable Clare L. Fiorenza,
Circuit Judge, Branch 3,
Presiding

Jennifer L. Carter, RPR, CRR, RMR, Official
Reporter

57a
APPEARANCES:
BRENT W. JOHNSON appeared on behalf of the
Plaintiffs.
KELLY J. NOYES appeared on behalf of the
Defendant, General Motors Corporation.
WILLIAM SHERMAN appeared on behalf of the
Defendant, Ford Motor Company.
DAVID KRIER appeared on behalf of the Defendant,
Ford Motor Company.
SUSAN K. ALLEN appeared on behalf of the
Defendant, FCA Canada, Inc., formerly known as
DaimlerChrysler Canada, Inc.
EXHIBITS
(No exhibits were offered or received into evidence.)

58a
TRANSCRIPT OF PROCEEDINGS
THE COURT: Good morning. This is Judge
Fiorenza. I’ll call the case. David Rasmussen, et al,
versus General Motors Corporation, et al; Case No.
03-CV-1828.
Appearances, please?
ATTORNEY JOHNSON: Good morning, Your
Honor. This is Brent Johnson of Cohen Milstein for
the plaintiffs.
THE COURT: Thank you. Is there anyone else on
the phone?
ATTORNEY JOHNSON: There -- there were,
Your Honor. There was a whole complement of
Defense counsel. I’m not hearing them right now.
THE COURT: Did you initiate the call, sir?
ATTORNEY JOHNSON: Yes, I did, and we had
all of the Defense counsel on the line and -- with your
clerk. We were just waiting for you, and now they’re
not speaking, for some reason that I can’t determine.
THE COURT: Okay. I’ll tell you what. I’m here.
Do you want to try to replace the call and call my
court back?
ATTORNEY JOHNSON: Yes. Why don’t I try to
do that right away?
THE COURT: Yeah. Actually, my phone’s -Another line’s ringing; so they might be on a
different phone. I’m not quite sure, but -- I can stay
on this line, or would it be easier to get everyone else
on, then call me back?

59a
ATTORNEY JOHNSON: Yeah. I think that would
be best, Your Honor. Why don’t I try to get everybody
else on and call you back?
THE COURT: Very good. Okay. Talk to you
shortly.
ATTORNEY JOHNSON: Bye-bye.
(The proceedings adjourned at 10:19 a.m. and
reconvened at 10:24 a.m.)
THE COURT: Good morning. This is Judge
Fiorenza. We’ll recall the case again. I understand
we have everyone on the phone. All right.
ATTORNEY JOHNSON: We do, Your Honor.
THE COURT: All right. David Rasmussen, et al,
versus General Motors Corporation, et al; Case No.
03-CV-1828.
Appearances, please?
ATTORNEY JOHNSON: You have Brent Johnson
of Cohen Milstein for the plaintiffs, Your Honor.
Good morning.
THE COURT: Good morning.
ATTORNEY NOYES: Kelly Noyes of von Briesen
& Roper for the plaintiff.
THE COURT: Good morning.
ATTORNEY SHERMAN: Good morning. Good
morning, Your Honor. William Sherman, Latham &
Watkins, for Ford.
THE COURT: Good morning.
ATTORNEY KRIER: Good morning, Your Honor.
David Krier from Reinhart, Boerner, van Duren, also
for Ford.

60a
THE COURT: Good morning.
ATTORNEY ALLEN: Good morning, Judge.
Susan Allen of Stafford Rosenbaum on behalf of FCA
Canada, Inc., formerly DaimlerChrysler Canada, Inc.
THE COURT: Good morning to each of you. This
case is before the Court today for a decision on the
defendant -- defendants, Ford Motor Company, Ford
Motor
Company
of
Canada,
Ltd.,
and
DaimlerChrysler Canada, Inc., now known as FCA
Canada, Inc., collectively referred to as defendants’,
motion for entry of judgment.
The defendants argue that the Court should grant
judgment in their favor and dismiss this action
because res judicata bars the plaintiffs’ claims. The
plaintiffs argue that dismissal is not warranted, as
the defendants have not established an exception to
the rule against nonparty preclusion.
This case was commenced on February 25th, 2003,
long before it was transferred to me as a result of
judicial rotation in 2016.
Plaintiffs commenced this action alleging that from
at least 2001 to 2003, a difference in exchange rate
between a stronger U.S. Dollar and a weaker
Canadian Dollar created an opportunity to sell
identical Canadian cars in the U.S. at a lower price.
The idea was that a car broker could buy a cheaper
car in Canada and sell it to a dealer or a consumer in
the U.S. at a lower price, thus driving down the price
of new cars sold in the U.S.
The plaintiffs -- Excuse me. The plaintiffs assert
that the defendants violated Wisconsin antitrust law
by conspiring to prevent cross-border traffic of new
cars, thus preventing cars from being sold in the U.S.

61a
They argue that the defendants collectively created
and enforced policies meant to keep lower-priced
Canadian cars out of the United States.
Plaintiffs’ theory of causation contains two parts:
One, that but for the collusion, dealer invoice prices
and manufacturer’s suggested retail prices would
have been lower; and, two, that but for the higher
dealer invoice prices and MSRPs, consumers would
have paid less.
Around the same time the plaintiffs filed this
action, plaintiffs all over the country commenced
virtually identical actions in state and federal
forums. The federal plaintiffs asserted violations of
Section 1 of the Sherman Act and sought certification
of a national class of consumers, including those in
Wisconsin. The federal cases were consolidated in
the U.S. District Court for the District of Maine as a
result of a multi-district litigation process.
The district court dismissed the federal plaintiffs’
damages claims in 2004, leading to an amended
complaint in the multi-district litigation process
action that brought state law claims, including
claims arising under Wisconsin Statute Section
133.01-133.18. The plaintiffs here are proceeding
under the same statutes.
In order to prosecute the federal and state cases,
plaintiffs’ counsel in the federal and state cases all
agreed to form a cooperative representation of the
state and federal plaintiffs under a joint coordination
order issued by the district court on April 28th, 2004.
The goal was to promote efficiency and to cut down
on expenses for all parties involved in the numerous
actions.

62a
The order provided for coordinated efforts between
those in the multi-district litigation action and in all
coordinated actions regarding the following:
Discovery scheduling, pretrial scheduling, service of
documents, participation in depositions, written
discovery, discovery dispute resolution, and global
use of discovery obtained.
The order listed the California action as the
coordinated action and provided that any other state
court could join by entering to the order. The
California plaintiffs withdrew from the coordinated
effort -- efforts and proceeded on their own, but every
other state court, including this one, joined the order.
As part of the coordination effort, plaintiffs’ counsel
representing federal and state plaintiffs entered into
a formalized joint prosecution agreement. Under the
agreement, the coordinated action counsel committee
was formed, which included some of the state and
federal plaintiffs’ counsels involved in their
respective actions.
Throughout the action, the state and federal
plaintiffs worked together regarding discovery
efforts, settlement negotiations, and appearances
before the district court in the multi-district
litigation action.
Around 2003 and 2004, this Court, and many other
state courts, also formally, or effectively, stayed their
respective actions pending the outcome of the multidistrict litigation action. The plaintiffs in the multidistrict litigation action eventually attempted to
certify a class which the district court granted on
June 15th, 2007.

63a
The First Circuit Court of Appeals reversed the
district court on March 28th, 2008, denying class
certification and remanding to the district court. The
First Circuit Court found the classification was
inappropriate because the novel and complex
common method of proof the federal plaintiffs chose,
which is also used by the plaintiffs here, was
insufficient to fulfill the predominance requirement
of Federal Rule of Civil Procedure 23.
The Court noted that there was intuitive appeal to
the plaintiffs’ theory of causation, but intuitive
appeal is not enough. Even if they could show acrossthe-board upward pressure on dealer prices and
MSRPs, they still needed to show how purchasers
and lessors were actually paying more.
It is important to reiterate that the Court there
was reviewing class certification, not a summary
judgment decision. As the Court recognized, the
inquiry on class certification standard is not one for
hard factual proof, but whether the plaintiffs'
representation of their case will be through means
amenable to the class action mechanism.
Following remand, the federal defendants moved
for summary judgment, seeking dismissal of the
multi-district litigation action. The federal plaintiffs
joined by those on the coordinated action counsel
opposed the motion.
On July 2nd, 2009, the district court incorporated
the First Circuit’s opinion into its reasoning and
granted the federal defendants’ motion for summary
judgment. Specifically, the district court held that
the federal plaintiffs failed to sufficiently connect a
nationwide increase in dealer invoice prices and
MSRPs to a nationwide increase in consumer end

64a
prices based upon the method of proof the federal
plaintiffs chose.
The Court found that under any of the state’s
antitrust laws, the common proof required two large
of an inference leap to conclude that nationwide
consumers paid more even if dealer invoice prices
and MSRPs increased. After some discussion -discussions amongst the coordinated action counsel,
the federal plaintiffs chose not to appeal the decision.
Over the ensuing years, defendants in various state
courts began to move for dismissal, claiming that, as
a result of the district court’s decision in the -- excuse
me -- the multi-district litigation, res judicata barred
the state action from continuing. Three courts have
since ruled on this issue.
On September 16th, 2010, the Minnesota District
Court granted summary judgment dismissing the
matter as barred by res judicata. On September
16th, 2010, the Minnesota District Court granted
summary judgment dismissing the matter due to the
application of res judicata. The Arizona Superior
Court reached a similar holding on February 28th,
2007, and the chancellor court in Tennessee
dismissed its corresponding state action on the same
grounds on June 12th, 2017.
On September 27th, 2017, the defendants in this
action filed a motion for entry of judgment in this
court seeking dismissal on the grounds of res
judicata. The plaintiffs responded on October 25th,
2017, and the defendants replied on November 8th,
2017. The Court held oral argument on December
5th, 2017.

65a
Much of the discussion focused on whether the
second element of res judicata, identity of cause of
action, was satisfied. The parties also addressed
whether
the
adequate
representation
and
substantial control exceptions applied, which would
allow the first element of res judicata to be fulfilled,
despite plaintiffs not being party to the master -- to
the multi-district litigation action.
The Court took the parties’ arguments under
advisement and adjourned the matter for oral
argument. There are a lot of facts in this case. I
acquired this case after many, many years of
litigation; so I’ve tried to summarize how the case
transpired. I, hopefully, have accurately set forth the
facts.
The sole issue for this motion is whether res
judicata warrants dismissal of this action. Both
parties have heavily briefed and discussed res
judicata, which I’ve reviewed, and both parties agree
on the applicable legal standard.
Res judicata or claim preclusion, exists to prevent
unnecessary expenses, to conserve judicial resources,
and protect the interests of judicial finality, Taylor v.
Sturgell, 553 U.S. 880 at 892, a 2008 case.
The elements of res judicata are as follows:
One, an identity between the parties or their
privies in the prior and current actions; two, an
identity between the causes of action in the two
suits; and, three, a final judgment on the merits in
the Court -- in a court of competent jurisdiction,
Wickenhauser v. Lehtinen, L-E-H-T-I-N-E-N, 2007
WI 82 at paragraph 22.

66a
Though res judicata generally does not bar
nonparties from bringing similar or identical claims
in a sub -- subsequent action, the United States
Supreme Court has carved out six exceptions to this
generaL rule allowing the first element of res
judicata to be fulfilled where a nonparty to the first
action brings a claim in a subsequent action.
Two of those exceptions are at issue in this case,
which are: A, where a -- where, in certain limited
circumstances,
a
nonparty
was
adequately
represented by a party to the suit having the same
interests in the previous action; and, B, where a
nonparty assumed control over the previous action in
which a judgment was rendered, Taylor at 894-95.
It is the defendant’s burden to demonstrate res
judicata in fact, applies. For reasons the Court will
discuss in a moment, this Court grants the
defendants’ motion for entry of judgment, as all three
elements of res judicata are satisfied in this case.
There is no dispute that the third element of res
judicata is fulfilled, as the district court’s decision
was a final judgment on the merit -- on the merits in
a court of competent jurisdiction litigation. The
parties agree that element is present.
In looking at the first element of res judicata,
although the plaintiffs were not parties to the multidistrict litigation process, the Court finds that they
were adequately represented in the multi-district
litigation process action. This finding aligns with the
holdings of the Minnesota, Arizona, and Tennessee
courts.
The United States Supreme Court has held that a
party’s representation of a nonparty is adequate

67a
where: One, the interest of the nonparty and her
representative are aligned; and, two, either the party
understood herself to be acting in a representative
capacity or the original court took care to protect the
interests of the party, and, in some cases; three, the
nonparty had notice of the original suit, Taylor at
page 9 -- 900.
In claiming that the parties were not adequately
represented in the multi-district litigation process,
the plaintiff primarily argues that the adequate
representation exception cannot apply because a
properly-conducted class action never occurred. This
Court disagrees.
The Taylor court’s decision -- In the Taylor court
decision, the recitation of the elements of adequate
representation notably does not include a properlyconducted class action suit. See id., 900 to 901. The
Wisconsin plaintiffs’ attempt to inject another
element
into
the
standard
for
adequate
representation is unpersuasive.
The Supreme Court has not applied this exception
so narrowly and, in the Taylor case, discussed places
where the exception could apply even in the absence
of a properly-conducted class action. Taylor focused
on the three elements of adequate representation, as
previously stated; and, based upon those elements,
there are clearly situations where adequate
representation may be present absent a properlyconducted class action. This is one of them.
Now, turning to the elements of adequate
representation, the Court finds that the interests of
the plaintiffs in this case, and the plaintiffs in the
multi-district litigation process, are aligned.

68a
The plaintiffs here sued the same defendants as in
the federal action based on the same alleged facts
occurring during that same time period. They
asserted the same claims, advanced the same
theories of recovery, presented the same record
evidence, and used the same expert witness.
There can be little doubt that, not only were the
interests of the Wisconsin plaintiffs and the federal
plaintiffs aligned, they were virtually identical. This
Court agrees, as did the Minnesota, Arizona, and
Tennessee courts, that the parties’ interests are
aligned.
Regarding the -- element two, either the federal
plaintiffs understood themselves to be acting as a
representative -- I’m sorry. Regarding element two,
either the federal plaintiffs understood themselves to
be acting in a representative capacity of the
Wisconsin plaintiffs or the district court took care to
protect the Wisconsin plaintiffs’ interests.
The Court finds that both of the possible ways of
meeting the requirements of element two are
fulfilled in this case. First, the federal plaintiffs
likely understood themselves to be acting in a
representative capacity of the plaintiffs in this case.
Numerous facts indicate that the federal plaintiffs
understood themselves to be acting in a
representative -- representative capacity of the state
plaintiffs, including the plaintiffs in this action.
This occurred largely through two of the firms
representing the plaintiffs here, Cohen Milstein and
Berger Montague. Both firms are part of the joint
prosecution agreement and order and the
coordinated action committee, and were named as

69a
part of the coordinated action counsel group in the
federal plaintiffs’ unsuccessful opposition to
summary judgment in the district court.
The Cohen Milstein firm and the Berger &
Montague lawyers were also active participants in
the multi-district litigation process action, including
coordinated discovery, developing the theory of the
case, hiring a joint expert that was to be used as part
of all plaintiffs’ common proof and dealing with
settlement issues.
In December -- In a December 2010 declaration
submitted to the district court, in support of Cohen
Milstein’s application for attorney’s fees, Cohen
Milstein -- a Cohen Milstein attorney described her
firm’s involvement in the federal action stating that
Cohen Milstein had performed the following work
regarding the -- the collective litigation:
Drafted and reviewed pleadings and other papers
for filing, including complaints, motions regarding
class certification, discovery, summary judgment,
and settlement papers; investigated the claims
asserted in the coordinated action, including
discovery
through
document
requests,
interrogatories, and examination by deposition;
corresponded with experts; corresponded with
coordinated action counsel; engaged in settlement
discussions with opposing counsel; reviewed and
analyzed briefs filed by the defendants; traveled to
and attended status conferences and hearings before
the courts.
Cohen Milstein’s counsel even made on-the-record
arguments to the district court regarding whether
the court should retain supplemental jurisdiction
over the state law claims on behalf of the Arizona,

70a
New Mexico, Minnesota, and Wisconsin plaintiffs. In
all, the firm claimed that it expended 7,744.7 hours
in the collective litigation totaling a lodestar of
$2,887,554.25.
Similarly, Berger & Montague, P. C., also
representatives of the plaintiff in this action,
submitted a declaration to the district court where it
stated that the firm had done the following with
regards to collective litigation:
Investigated the factual basis for the actions;
coordinated the state and federal cases; delegated
responsibility to plaintiffs’ counsel in those cases;
drafted and responded to written discovery; reviewed
documents produced by the defendants; prepared for
and took deposition -- depositions common to the
state and federal cases; conducted legal research and
drafted related memoranda; reviewed defendants’
privilege logs; and assisted in the settlement of
claims against Toyota. Berger Montague claimed
that they had expended 2,235.45 hours in the federal
action, which came out to a lodestar of $800,758.25.
Both firms remain engaged in this action, and both
signed off on the plaintiffs’ brief in opposition to
summary judgment. The two declarations just
referred to are included in an affidavit of William
Sherman filed on November 8th, 2017.
Like the Minnesota, Arizona, and Tennessee courts
found, this Court finds that the federal plaintiffs
understood that they were acting in a representative
capacity of the Wisconsin plaintiffs through counsel
that was heavily involved in both actions -- both
actions. The uncontested facts lead to no other
reasonable conclusion.

71a
Even if that were not the case, the district court
took care to protect the interests of all state
plaintiffs, including to the Wisconsin plaintiffs. The
joint prosecution agreement that counsel for the
federal actions and many state actions, including
this action, was intended to protect the interests of
all plaintiffs.
The district court endorsed such coordinated action
and issued a joint coordination order on April 28th,
2004. The joint coordinated order allowed other state
courts to join in or to go forward on their own. This
Court joined the order along with every other state
court except that of California.
Further, the district court understood itself to be
responsible for conducting the, in quote, lead case for
discovery in discovery-related pretrial scheduling,
end of quote. Indeed, the joint coordination order
provided a plan for federal and state plaintiffs to
participate in and have access to all phases of
discovery and to allow them to participate in the
multi-district litigation proceedings to protect their
interests in the federal forum.
This Court also notes that Judge Hornby
communicated with state court judges regarding the
federal action. This Court, therefore, holds that the
second element of adequate representation is
satisfied.
Regarding the third element, to the extent it is
necessary, the Court finds that the third element of
adequate representation is satisfied. Neither party
disputes that the Wisconsin plaintiffs received notice
of the multi-district litigation process. Nor could they
reasonably do so based on the record before the
Court. As the Arizona Court noted, in quote, It is

72a
difficult to imagine a more compelling case for
preclusion based on adequate representation, end of
quotes.
Accordingly, this Court finds that the Wisconsin
plaintiffs were adequately represented in the multidistrict litigation process action since this action
applies.
Since this exception applies, the Court finds that
there was an identity of parties or privies here,
despite the fact that the Wisconsin plaintiffs were
not parties to the multi-district litigation process
action. As a result, the first element of res judicata is
fully -- is fulfilled on the basis of adequate
representation.
Though the Court’s findings that the adequate
representation exception applies disposes of whether
the first element of res judicata is satisfied, which it
does, I will briefly discuss the assumed control
exception that was briefed and discussed in oral
argument.
Whether the Wisconsin plaintiffs took sufficient
control over the multi-district litigation action is not
as clear-cut as the adequate representation
exception, indeed, while the Tennessee Court found
the plaintiffs there had assumed sufficient control of
the multi-district litigation action, the Arizona Court
found that identically situated plaintiffs in that case
had not.
The Minnesota Court did not address this control
exception. Though, not as clear-cut as the issue of
being adequately represented -- represented, I do
find that the control exception is met.

73a
The Arizona court primarily based its conclusion on
a finding that the state plaintiffs did not control
whether or not the multi-district litigation summary
judgment decision would be appealed. In doing so, it
relied on Montana vs. United States, 440 U.S. 147, a
1979 case.
While Montana stands, in large part, for the
proposition that controlling whether or not an appeal
is filed and maintained is significant to the control
exception, there is no case that holds whether
controlling an appeal alone is dispositive. I believe it
is not. By contrast, the Tennessee court held that the
state plaintiffs sufficiently controlled the multidistrict litigation for many of the same reasons they
were adequately represented.
The Wisconsin plaintiffs attempt to minimize their
involvement in the multi-district litigation action;
but, as already discussed, they certainly exerted
some level of control. While the Wisconsin plaintiffs
claim they had no control over whether the district
court’s decision was ultimately appealed, they
admitted at oral argument that they had input on
case strategy, arguments presented to the federal
court, and the decision not to appeal.
Certainly, the control exception should not be read
to mean that a plaintiff in one action literally
assumes complete control of another action and
displaces those plaintiffs. The exception seems to get
at the notion that where a nonparty has enough of a
say in another action, it is essentially a party in that
action. As the Wisconsin plaintiffs had seemingly
significant strategic input and were part of the
discussion regarding whether to appeal, they had
sufficient control over the litigation.

74a
If the Court finds that the first and third element
of res judicata are fulfilled, the Court must finally
determine whether there is an identity of causes of
action. The Court notes that there is little to no
Wisconsin law dealing with the specific issue
plaintiff raised -- plaintiffs raise on the second
element of res judicata.
Unlike federal law, Wisconsin does not allow for
indirect purchasers to assert a pass-through theory
of causation, as the plaintiffs advance here. However,
the question of what level of pass-through effect
indirect purchasers must show to survive summary
judgment is not settled.
The defendants argue that the multi-district
litigation process action and this action name the
same group of defendants, allege the same conduct
and series of events that occurred during the same
time period, seek the same recovery, and involve the
same antitrust claims under Wisconsin Statutes
Section 133.01 and subsequent statutes. The
defendants contend that, as a result, there was an
identity of causes of action between the two lawsuits.
Plaintiffs counter by claiming that the district
court applied the wrong antitrust causation standard
when it dismissed the multi-district litigation
process action on summary judgment. They claim
that the Wisconsin courts would hold differently,
meaning that there cannot be identity of causes of
action here. However, the plaintiffs cite no case in
Wisconsin holding that way, merely pointing to a
number of federal classification decisions in support
of their claim.
As was discussed heavily in briefing and in oral
argument, the Court again reiterates that we’re not

75a
dealing with a class -- we are not dealing with class
certification here. The plaintiffs are mainly relying
on two U.S. Supreme Court cases, Smith v. Bayer
Corp., 131 Supreme Court 2368, 2011, and Chick
Kam Choo vs. Exxon Corp., 486 U.S. 140, 1988.
The Smith court considered a situation where that
district court denied class certification to a group of
plaintiffs, and the defendants then moved to enjoin a
state court from considering class certification under
Wisconsin -- under West Virginia law. The court held
that the federal and state class certification statutes
differed such that the state court may hold
differently than the federal court, and the claim
should not be precluded.
In Chick Kam Choo, the federal district court
applied the doctrine of forum nonconvenience to
dismiss an action bringing federal, Singapore, and
Texas law claims. It then instructed the case to be
brought in Singapore courts. The suit was,
nevertheless, brought in a Texas court with only
Texas and Singapore law claims eventually
remaining.
The defendants moved to enjoin the Texas court
from seeking to relitigate in any state forum the
issues finally decided in the federal court’s 2000 -federal courts 1980 dismissal. The Supreme Court
reached two separate holdings:
First, it held that the procedural claims for
nonconvenience could not be barred under res
judicata principles because the Texas constitution
could not open the door for a Texas Court’s -- because
the Texas constitution could open the door for the
Texas courts to hold differently than federal courts.
Second, it held that the Texas state law claims were

76a
barred by res judicata principles, as a district court
considered the merits of the claim and held that the
Singapore law controlled instead of Texas law.
Both cases are instructive of the general idea that
res judicata should not apply where there are
competing laws at issue or one court may hold
differently than another, but neither supports the
plaintiffs’ position. Smith lacks persuasive force, as
the Court there was considering competing federal
and state class action rules.
Additionally, Chick Kam Choo may provide more
support for the defendants’ position than the
plaintiffs. The plaintiffs ignore that Chick Kam Choo
is second holding where it actually barred the Texas
state law claim at issue on res judicata principles
because a district Court had considered it.
Based on examination of the district court’s ruling
and the record in this action, the Court concludes
that there was an identity of causes of action. The
plaintiffs in this action asserted the same claims
against the same defendants as the federal action
based on the same set of facts. They advanced the
same theories and utilized the same evidence and
experts in the federal -- Wait. They advanced the
same theories and utilized the same evidence and
experts as the federal plaintiffs in support of their
claims.
The district court considered the law of each of the
nineteen states, including Wisconsin, and it stated
that the federal plaintiffs could not meet their
burden to show antitrust impact as to any of the
states.

77a
Lastly, as discussed previously, no party disputes
that the district court’s decision was a final judgment
on the merits in a court of competent jurisdiction.
Accordingly, the Court finds the third element of res
judicata is also satisfied here.
In conclusion, the Court holds that, as a matter of
law, due to the U.S. District Court July 2nd, 2009,
decision granting summary judgment for the
defendants in that action, res judicata bars the
plaintiffs’ antitrust claims here for the following
reasons:
One, though the plaintiffs were not parties to the
federal action, there was identity of parties or privies
between the two actions, as the adequate
representation exception applies in this case; two,
there was identity of causes of action between the
two thoughts; and, three, the district court issued a
final judgment on the merits and was a court of
competent jurisdiction in that action.
As a result, the Court grants the defendant’s
motion for judgment under the doctrine of res
judicata and dismisses the plaintiffs’ claims with
prejudice. This case is dismissed with prejudice.
I request that one of the Defense counsel kindly
prepare a proposed written order and submit it to
the Court under the local five-day rule. Who would
like to submit that?
ATTORNEY JOHNSON: Dave, do you want to do
that?
ATTORNEY KRIER: Yes. Reinhart will take care
of that.

78a
THE COURT: Okay. I will look for a proposed
order then. Is there anything else that needs to be
put on record?
ATTORNEY JOHNSON: Thank you, Your Honor.
ATTORNEY KRIER: Thank you, Your Honor.
THE COURT: Okay.
ATTORNEY NOYES: Thank you, Your Honor.
THE COURT: This decision was much longer than
I anticipated. You know, it's -- The case just, you
know, was -- was in litigation for such a long period
of time. And I -- I apologize for the length of the
decision, but I thought it was necessary to put the
facts in as I did; so have a good day.
ATTORNEY JOHNSON: You too, Your Honor.
ATTORNEY ALLEN: Yes, Judge. Thank you.
ATTORNEY KRIER: Thank you, Your Honor.
(The proceedings concluded at 11:07 a.m.)
***

79a
APPENDIX F
_________
STATE OF NEW MEXICO
COUNTY OF SANTA FE
FIRST JUDICIAL DISTRICT
_________
EMANUELE CORSO, ON HIS OWN BEHALF AND ON
BEHALF OF ALL OTHERS SIMILARLY SITUATED,
Plaintiff,
v.
GENERAL MOTORS CORPORATION, ET AL.,
Defendants.
_________
D-101-CV-2003-00668
_________
Filed: 1/19/2018
_________
Decision on Ford’s Motion for Judgment
Based on Res Judicata
_________
The motion under consideration requests judgment
in Ford’s favor on the grounds of res judicata based
on a decision in an MDL case that concerns the same
alleged violations of the antitrust laws and the
consumer protection laws. Numerous cases were filed
challenging an alleged conspiracy to limit the
importation of new or almost new cars from Canada
during years when the exchange rate allegedly would
have allowed buyers to arbitrage United States
prices based on the lower-priced Canadian cars if
such imports had not been restricted. A number of

80a
federal cases alleging both federal antitrust law
violations and eventually, under supplemental
jurisdiction, state antitrust and consumer protection
act violations were consolidated into an MDL case
assigned to Judge Hornby in Maine. See In re New
Motor Vehicles Canadian Export Antitrust Litigation,
632 F.Supp. 2d 42 (“the MDL case”). Meanwhile
similar cases alleging the same violations of the state
statutes were brought in a number of states which
were also the subject of the MDL action under
supplemental jurisdiction. Of most relevance to this
decision are this case in New Mexico and cases
brought in Minnesota, Lerfald v. GMC, Ex. A to
Ford’s Motion, p. 4; Arizona, Maxwell v. GMC, Ex. B
to Ford’s Motion, p. 4; and Tennessee, Johnson v.
GMC, Ex. 1 to Ford’s Response to Plaintiff’s
Supplemental Opposition.
In the MDL case, Judge Hornby initially certified a
class, but that decision was reversed by the First
Circuit. In re New Motor Vehicles Canadian Export
Antitrust Litigation, 522 F.3d 6 (1st Cir. 2008).
Following remand, Judge Hornby ruled on a defense
motion for summary judgment. On the critical issue
regarding evidence of antitrust impact the ruling
was largely informed by the First Circuit decision on
class certification. 632 F.Supp. 2d at 51. Judge
Hornby granted summary judgment. The judges in
the three state cases cited above, then applied res
judicata to dismiss the cases pending in their
respective states. Ford has now requested that this
Court do the same.
In general, “claim preclusion or res judicata bars
relitigation of the same claim between the same
parties or their privies when the first litigation

81a
resulted in a final judgment on the merits.” Deflon v.
Sawyers, 2006–NMSC–025, ¶ 2, 139 N.M. 637, 137
P.3d 577 (internal quotation marks and citation
omitted). See also Alba v. Hayden, 2010-NMCA-037,
¶ 6, 148 N.M. 465, 467, 237 P.3d 767, 769. There is a
fundamental rule, however, that a litigant is not
bound by a judgment to which he or she was not a
party. Ideal v. Burlington Resources 2010-NMSC022, ¶ 12, 148 N.M. 228, 233 P.3d 362; Taylor v.
Sturgell, 553 U.S. 880 (2008). This fundamental rule
is premised on the “deep-rooted historic tradition
that everyone should have his own day in court.”
Taylor, 553 U.S. at 892-93. Under Ideal pre-class
certification decisions are not binding on class
members. Therefore, Corso could not be bound by
summary judgment in the MDL case on account of
his role as a putative class member because the class
was never properly certified.
This does not end the inquiry, however, because
Taylor recognized other exceptions to the
fundamental rule. Since Taylor has been cited by the
NM Supreme Court, it is safe to assume those
exceptions apply in New Mexico also.
Taylor grouped those exceptions into six categories.
Two of those categories are relevant: the third and
fourth exceptions. The third exception provides that
“in certain limited circumstances a nonparty may be
bound because she was adequately represented by
someone with the same interests who was a party to
the [prior] suit.” 553 U.S. at 894. Under this category
the Court listed the following examples: properly
conducted class actions and suits brought by
trustees, guardians, and other fiduciaries. The other
exception that is arguably applicable to this case –

82a
the fourth provides: “a nonparty is bound by a
judgment if she ‘assumed control’ over the litigation
in which that judgment was rendered.” Id. at 895.
These exceptions will be discussed in reverse order.
A. Control
As to the control element, the Arizona Court that
decided this same issue in the comparable Arizona
case found that the Arizona plaintiff did not assume
control of the MDL case because the Arizona plaintiff
did not have the ability to control whether an appeal
was taken. Maxwell v. GMC, Exhibit B, p. 4.
However, the Minnesota Court which ruled on the
issue found that the state plaintiffs controlled the
MDL litigation. Lerfald v. GMC, Ex. A, p. 4. The
Tennessee court also found that sufficient control
was present for the MDL summary judgment to bind
the state plaintiffs. Johnson v. GMC, Ex. 1, p. 2;
Exhibit A thereto at pp. 7-8.
This Court is bound by New Mexico law regarding
res judicata. In particular, this Court must look to
New Mexico law to determine what constitutes
sufficient indicia of control for a non-party to be
bound by a prior judgment. In this regard, the New
Mexico Court of Appeals has established that “the
sufficiency of a non-party’s control and participation
is a question of fact.” Poorbaugh v. Mullen, 1981NMCA-009, ¶ 8, 96 N.M. 598, 600–02, 633 P.2d 706,
709–10 (citations omitted). Further, “[t]he burden of
affirmatively proving sufficient control rests upon
the party seeking to invoke the conclusive force of
the judgment.” Id.
On the substance of the issue, the Court of Appeals
cited 1B Moore’s Federal Practice P 0.411(6) at 1552
(2d ed. 1980):

83a
Generally speaking,
the
rule as to
participating non-parties requires that the
non-party have control, or at least joint control
of the prosecution or defense of the suit. And
he must be able to control the decision to
appeal or not to appeal.
(Emphasis supplied.) The requirement that the nonparty have control over the decision to obtain review
is consistent with the Restatement (Second) of
Judgments which provides in part:
c. Elements of control. To have control of
litigation requires that a person have effective
choice as to the legal theories and proofs to be
advanced in behalf of the party to the action.
He must also have control over the
opportunity to obtain review.
Restatement (Second) of Judgments § 39 (1982).
In the present case there is no indication that
Corso, a non-party to the MDL case, or his counsel,
had the ability to control whether an appeal would
be taken from the summary judgment ruling. In fact,
what evidence there is suggests Corso and his
counsel had no such control. For this reason, I agree
with the Arizona court that control was not shown
and that the control exception to the rule that a nonparty is not bound by a judgment to which he or she
was not a party cannot be the basis for binding Corso
in this case.
B. Participation
The participation exception presents a more
difficult issue. Taylor stated the requirement:
A party’s representation of a nonparty is
‘adequate’ for preclusion purposes only if, at a

84a
minimum: (1) the interests of the nonparty
and her representative were aligned, see
Hansberry [v. Lee], 311 U.S. [32,] 43 [(1940)];
and (2) either the party understood herself to
be acting in a representative capacity or the
original court took care to protect the interests
of the non-party, see Richards [v. Jefferson
County], 517 U.S. [793,] 801– 802 [(1996)].... In
addition, adequate representation sometimes
requires (3) notice of the original suit to the
persons alleged to have been represented, see
Richards, 517 U.S. at 801.
553 U.S. at 900.
1. Were the Interests Aligned?
It is clear that the interests of the plaintiffs in the
MDL litigation were the same as the interest of
Corso. Both cases sought the same relief from the
same defendants under the same theories for
violations of the same New Mexico statutes. Lerfald
v. GMC, Ex. A, p. 4; Maxwell v. GMC, Ex. B, pp. 4-5;
Johnson v. GMC, Ex. 1, p. 2, Ex. A. p. 5 .
2. Did the MDL Plaintiffs Understand They Were
Acting in a Representative Capacity?
The second criterion is whether the MDL plaintiffs
understood they were acting in a representative
capacity. In looking at this requirement, the Arizona,
Minnesota, and Tennessee judges appear to conflate
the concept of control with the concept of acting in a
representative capacity. To my mind, these concepts
are not interchangeable. I see little evidence that
shows that the MDL plaintiffs thought they were
acting in a representative capacity. To be sure the
MDL plaintiffs filed their suit as a class action, but

85a
the class was never properly certified. Thus, the
MDL plaintiffs could not have thought their actions
were as class representatives. See Ideal, 2010NMSC-022, ¶ 13. Counsel, including Corso’s counsel,
entered into a joint prosecution agreement with the
MDL plaintiffs’ counsel. The terms of this agreement
have not been revealed to the Court. In one
declaration an MDL plaintiffs’ counsel stated: “The
joint prosecution agreement is intended to protect
the interests of all plaintiffs.” Ford Motion, Ex. D,
¶ 2. While this is some indication that the interests
of the state court plaintiffs were to be protected, in
the Court’s experience with joint prosecution or
defense agreements, however, one party to the
agreement does not stand in a representative
capacity to the other parties to the agreement.1 See
Universal Engraving, Inc. v. Metal Magic, Inc., 2010
WL 4922703, at *18 (D. Ariz. filed November 29,
2010) (stating no court has found the existence of a
joint defense agreement sufficient to establish
privity). If anything, the joint prosecution agreement
shows that the interests of the MDL plaintiffs and
Corso were aligned. This relates to the first criteria,
which the Court has already determined has been
met.
In one of the partial transcripts submitted by Ford,
Motion Ex. G, federal plaintiffs’ counsel addressed
why the MDL court should exercise its supplemental
jurisdiction to hear the state claims to avoid having
1

For example, if Ford and the other auto manufacturer
defendants had a joint defense agreement in this case (which
they apparently do), the Court would not assume that meant
that Toyota, for instance, was representing Ford in this case,
nor would Ford’s counsel make such an assumption.

86a
the aggrieved plaintiffs bring suit in 50 different
states. He described his intent to cooperate with the
state court counsel. Intent to cooperation, however, is
not sufficient to justify a bar against non-parties. See
Wright & Miller, 18A Fed. Prac. & Proc. Juris.
§ 4449 (2d ed.) listing some actions that are
insufficient to show participation, including
participation in consolidated pretrial proceedings;
undertaking some limited presentations to the court;
or otherwise participated in a limited way. The real
issue is “[t]he character and extent of the
participation in litigation” because “no single fact is
determinative but all the circumstances must be
considered from which one may infer whether or not
there was participation amounting to a sharing in
control of the litigation.” Watts v. Swiss Bank Corp.,
27 N.Y.2d 270, 277, 265 N.E.2d 739, 743–44 (1970),
cited with approval by Poorbaugh, 1981-NMCA-009,
¶ 8.
Perhaps more telling are the statements of Mr.
Corbitt, who was liaison counsel for the California
state court claims,2 in which he stated: “[W]e are in
discussions weekly in California with other state
court plaintiffs, working together in discussions
about a way to cooperatively work together and move
these cases forward for the benefit of all plaintiffs in
the various jurisdictions. We are hopeful we will be
able to reach a resolution on that satisfactory to
everyone’s concern.” Ford Motion, Ex. G, p. 40.
2

It is interesting to note that the California plaintiffs asked
to have their cases dismissed from the MDL action in favor of
bringing them in the California courts. This request was
granted. Ex. P to Ford’s Motion. No similar request was made
by the New Mexico plaintiffs.

87a
Similarly in Ford Motion, Ex. E. the MDL plaintiffs’
counsel states: “[W]e have been working actively
with the law firms running the state court cases. We
have not quite nailed down all the logistics [re
discovery mechanisms]. It’s an ongoing discussion we
are having. We have heard the dialogue and I think
it will not be a difficult matter to at least come up
with a framework as best we can.” Motion, Ex. E, p.
8. These comments do not indicate that the federal
plaintiffs were acting in a representative capacity.
3. Did the MDL Court Take Care to Protect the
Non-Party’s Interests?
In the MDL action Judge Hornby took care to give
the nonparty state plaintiffs the opportunity to
participate in joint discovery. He entered a Joint
Coordination Order which allowed plaintiffs from the
parallel state actions to enter comparable orders and
thereafter participate in coordinated discovery. In
this case such an order was entered without
objection from Corso’s counsel. See Plaintiffs’ . . .
Non-opposition to Motion for Entry of a Coordination
and Protective Order filed July 30, 2003; Joint
Coordination Order filed October 29, 2004. Such joint
cooperation is not enough to show sufficient
participation to justify binding a nonparty litigant,
even one who participates in joint discovery. See
Wright & Miller, supra at § 4449.
Judge Hornby also allowed the firms of counsel in
this case to participate in some MDL hearings. Based
on the transcripts and exhibits provided by Ford,3
3

Some of the transcripts excerpts were so abbreviated that it
was impossible to tell what was under discussion. See, e.g.,
Motion, Ex. H.

88a
those appearances seemed to be limited primarily to
providing the MDL judge with information about the
status of the state cases. See Motion, Ex. I, Motion
Ex. F, pp. 25-29. This too is insufficient. Id. As
previously mention, however, the declaration of
federal plaintiffs’ counsel that the Joint Prosecution
Agreement was intended to protect all plaintiffs’
interests.
One area in which the state plaintiffs’ counsel were
actively involved was in a settlement was reached
with two defendants: Toyota Motor Sales U.S.A., Inc.
and Canadian Automobile Dealers’ Association. See
Motion, Ex. J. State plaintiffs’ counsel, including
firms involved in this case, actively participated in
settlement negotiations and in obtaining approval of
the settlement class and the settlement. Motion Exs.
J, M, N.
A critical issue to determining whether there was
sufficient
participation
is
Corso’s
counsel’s
involvement in the Plaintiffs’ Opposition to
Defendants’ Motions for Summary Judgment with
Incorporated Memorandum of Law. Motion, Ex. Q.
While the Court has not been provided with a
complete copy of this memorandum, it has been
provided with the signature pages. A review of these
pages shows that the brief was signed, i.e., a
signature affixed to the document, only by the Chair
of the Plaintiffs’ Executive Committee. Thereafter
appears a list of the Plaintiffs’ Executive Committee.
None of Corso’s counsel appears in this list. Then
there appears another list entitled “Additional
Plaintiffs’ Counsel.” Corso’s counsel do not appear on
this list. (The Court assumes these are other federal
plaintiff’s counsel who were not on the executive

89a
committee.) Finally, there is a list entitled Plaintiffs’
Coordinated
Action
Counsel.
The
phrase
“Coordinated Action” was previously defined in the
Joint Coordination Order as the California cases
before Judge Kramer and “any other state court
lawsuit that subsequently enters this order[,]” which
this Court did. It is on this list that Corso’s counsel
appear. Motion Ex. Q, p. 92.
Because of the formatting and placement of the
signature line, this Court disagrees with the
conclusion of the Minnesota and Tennessee courts
that state plaintiffs’ counsel “signed” the
memorandum. See generally Rule 1-011(A), NMRA
defining signature as “an original signature, a copy
of an original signature, a computer generated
signature, or any other signature otherwise
authorized by law.” This conclusion, however, does
not end the inquiry. The Court must also look to the
fact that counsel representing Corso were listed as
Plaintiffs’ Coordinated Action Counsel, because the
bedrock issue is whether Corso had the opportunity
to present his arguments in the MDL case. If he did,
he has had his day in court. See Taylor, 553 U.S. at
895.
Based on the listing of state court counsel as
described above the Arizona Court determined:
Plaintiffs’ counsel litigated the MDL summary
judgment motion as Plaintiffs’ Coordinated
Action Counsel.8
8

The Court agrees with the Defendants that
placement and formatting of the signature
blocks indicate that Plaintiffs’ Coordination
Action Counsel endorsed the argument made
on behalf of these Plaintiffs, as did the

90a
Executive
Committee
and
Additional
Plaintiffs’ Counsel on behalf of others.
Maxwell v. GMC, Motion Ex. B, p 5. At argument,
Corso’s counsel admitted they were involved in
drafting the response.
The Arizona court’s conclusion is supported by the
Declaration of Cohen Milstein Sellers & Toll PLLC in
Support of Application for Award of Attorneys’ Fees,
Reimbursement of Expenses, and Provision of
Incentive Awards (“Cohen Milstein Declaration”).
Ford’s Reply, Ex. U. This Declaration was filed in
support of an award of fees and costs in conjunction
with the settlements mentioned above. In the Cohen
Milstein Declaration an attorney who is of counsel
with the firm declared that her firm was involved in
various aspects of the activities on behalf of the
plaintiffs, previously defined as Plaintiffs in several
state court actions coordinated with the MDL action.
The declarant then listed numerous activities
including: “drafting and reviewing pleadings and
other papers for filing including complaints, motions
regarding . . . summary judgment, and settlement
papers[.]” The long list of activities shows not only
substantial involvement in the summary judgment
proceedings, but also it shows significant
involvement in the MDL litigation from complaint
through settlement. Indeed, Cohen Milstein declared
it expended over 7,744 hours on the litigation as of
November 10, 2010.4

4

At the conclusion of the hearing Plaintiffs’ counsel provided
the Exhibit to the declaration. This exhibit does not provide a
breakdown of tasks performed; it merely gives cumulative
hours worked by various law office personnel.

91a
A similar declaration filed on behalf of another of
Corso’s counsel included a statement that time had
been spent on “coordinating state and federal cases,
delegating responsibility to plaintiffs’ counsel in
those cases; . . . legal research and drafting
memoranda.” This firm claimed over 2,235 hours
were expended on this litigation. Berger & Montague
Declaration, Ford Reply, Ex. V.5
The declarations by Corso’s counsel are damning to
their claim in this case that they were not involved
in the MDL litigation. They were involved as counsel
for various state court plaintiffs, including Corso.
They were involved, not just in coordinated
discovery, but also they were involved in the
summary judgment proceedings. Unlike California
counsel, they made a tactical decision to have the
New Mexico claims remain in the MDL litigation.
Having so elected and having had the opportunity to
litigate their position, they are now bound by that
decision under the third exception listed in Taylor.
Corso raises one other argument in his
Supplemental Memorandum which has not been
addressed. This argument is based on Smith v.
Bayer, 564 U.S. 299 (2011). The Court has serious
reservations about whether such argument should be
addressed. The parties were given leave to file
supplemental memoranda “limited to changes in law
or fact since the 2011 briefs were filed.” Order Lifting
Stay filed Nov. 8, 2017. Corso’s brief almost entirely
ignores this limitation. With one exception, a portion
of the discussion of antitrust causation on pages 5-6,
the Plaintiffs’ Supplemental Memorandum rehashes
5

Ibid.

92a
or recasts arguments previously made with citation
to authorities that predated the 2011 briefs. This in
itself is sufficient grounds to ignore these arguments.
Out of an abundance of caution, however, the Court
will address the Smith argument.
Smith involved consideration of an exception to the
Anti-Injunction Act. A federal district court enjoined
a state court from considering a motion to certify a
class because the federal district court had earlier
denied a motion to certify a class in a related case
brought by a different plaintiff against the same
defendant alleging similar claims. 564 U.S. at 302.
The United States Supreme Court decided that the
issuance of an injunction exceeded the district court’s
authority under the “relitigation exception” to the
Anti-injunction Act. Id. The Supreme Court reasoned
that the relitigation exception, which allows a court
to enjoin a state action when necessary to protect a
federal judgment, did not apply because the issue
presented in the state court was different. The Court
also held that the state plaintiff did not have the
requisite connection to the federal suit to be bound.6
The first ground determined that the federal
criteria for class certification were different from the
state criteria, and therefore, the two issues presented
were not the same. This was decided in the context of
statutory construction of the Anti-Injunction Act.
This is also different than what is happening in the
instant case. In the MDL case the judge was deciding
whether the plaintiff’s type of proof was sufficient to
6

The Court has already addressed the reasons why plaintiff
in this case did have the requisite connection to the federal suit
to be bound. It is unnecessary to repeat those arguments.

93a
meet the requirements of the New Mexico antitrust
statutes and the Unfair Practices Act. This is the
very same issue that this Court would decide.
Moreover, the decision turned not on the quality or
quantity of the evidence but on whether the legal
criteria under the New Mexico statutes were met.
Thus, the differences in summary judgment
standards between New Mexico and the federal
courts did not come into play. The MDL judge did not
rely on Ashcroft v. Iqbal , 556 U.S. 662 (2009), and
Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007),
which are the cases rejected by New Mexico.
Further, Smith was dealing with an attempt by the
original court to dictate to the subsequent court the
impact of the original court’s order. As the Court
recognized, “a court does not usually ‘get to dictate to
other courts the preclusion consequences of its own
judgment.’” 564 U.S. at 307 (citation omitted).7
It appears to the Court that Plaintiff is really
arguing that the MDL court was wrong in its
application of New Mexico law. Assuming this to be
the case,8 that fact is irrelevant. As has been noted:
“One of the foundational principles of res judicata is
that neither errors in the prior proceeding, nor the
merits of the present case, have any relevance to a
7

This admonition demonstrates that in this case, Judge
Hornby’s limitation of his decision to the named plaintiffs in the
MDL case does not establish that his decision cannot be used as
a basis to bar non-parties in subsequent litigation.
8

Despite Ford’s arguments to the contrary, this Court has
grave concerns about whether the summary judgment motion
was decided correctly under New Mexico law. For the reasons
discussed above, however, these concerns do not defeat a claim
of bar.

94a
court considering a motion to preclude.” Robert Ziff,
For One Litigant’s Sole Relief: Unforeseeable
Preclusion and the Second Restatement, 77 CORNELL
L. REV. 905, 918 (1992). See Federated Dep’t Stores v.
Moitie, 452 U.S. 394, 398 (1981) (“[T]he res judicata
consequences of a final, unappealed judgment on the
merits [are not] altered by the fact that the judgment
may have been wrong or rested on a legal principle
subsequently overruled in another case.”). Thus,
even if the MDL court was wrong in its decision, that
does not prevent the decision from acting as a bar to
relitigating in this Court that which has already
been litigated.
For the reasons, given above, Ford’s Motion for
Judgment is granted.9 Counsel for Ford is directed to
draft and circulate a proposed Order that
memorializes this decision. Such draft should be
circulated no later than February 2, 2018. Counsel
for Corso should discuss with Ford’s counsel any
objections they have with the proposed order. Ford’s
counsel should submit the proposed order to the
undersigned in Word format no later than February
9, 2018, via email to sfedsms@nmcourts.gov. If
Corso’s counsel are unable to approve the proposed
order as to form, they are to file and submit
objections to the form of order to the undersigned via
email by February 9, 2018.
/s/ Sarah M. Singleton
Sarah M. Singleton
Judge Pro Tem, Sitting by Designation
9

The portion of the motion that requested that the stay be
lifted was already granted.

95a
APPENDIX G
_________
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
_________
CV 2003-003925
_________
02/28/2011
_________
ROBERT D MAXWELL JR., ET AL.,
v.
GENERAL MOTORS CORPORATION ET AL.,
_________
Filed: 03/02/2011
_________
MINUTE ENTRY
_________
The Court received and considered Non-Settling,
Non-Bankrupt Defendants’ (“Defendants”) Motion for
Entry of Judgment, the responsive memorandum in
opposition thereto and the reply. Oral arguments
were held on February 11, 2011 and the matter was
thereafter taken under advisement.
Procedural Background
On July 2, 2009, U.S. District Court Judge Hornby
issued his Decision and Order granting Defendants’
Motion for Summary Judgment in the federal MDL
action. In Re New Motor Vehicles Canadian Export
Antitrust Litigation, 632 F. Supp. 2d 42 (D. Me.
2009). In this action, Defendants now move for entry

96a
of judgment, arguing that res judicata bars these
Arizona Plaintiffs’ (“Plaintiffs”) claims. The Court
will not set forth a lengthy recitation of the facts
beyond this very brief procedural history, but rather
will discuss relevant facts as necessary to resolution
of the issues presented.
Analysis
The preclusive effect of a judgment is defined by
claim and issue preclusion, collectively referred to as
res judicata. Taylor v. Sturgell, 553 U.S. 880, 892
(2008). These two doctrines protect against the
expense and vexation of multiple lawsuits, conserve
judicial resources, and foster reliance on judicial
action by minimizing inconsistent decisions. Id.,
citing Montana v. U.S., 440 U.S. 147, 153-54 (1979);
see also Hall v. Lalli, 194 Ariz. 54, 57, 977 P.2d 776,
779 (1999).
“Due process, on the other hand, dictates that a
party has the right to be heard.” Hall, id. Thus,
application of claim and issue preclusion to nonparties juxtaposes against the “deep-rooted historic
tradition that everyone should have his own day in
court.” Taylor, id. at 892-93, quoting Richards v.
Jefferson County, 517 U.S. 793, 798 (1996); Hall, id.
I.
There are six categories of exceptions to the general
rule against non-party preclusion, as recognized in
Taylor. Two of them are at issue here: (1) a nonparty is bound by a judgment if he “assumed control”
over the litigation in which the judgment was
rendered; and (2) a non-party may be bound by a

97a
judgment because he was “adequately represented”
by a party to the suit. 553 U.S. at 894-95.1
Assumption of Control Over the Litigation.
In setting forth the assumption of control
exception, Taylor specifically relied on that Court’s
decision in Montana. Taylor, 553 U.S. at 895. After
acknowledging the fundamental precepts embodied
in the doctrine of preclusion, Montana noted that
these same interests apply when non-parties
“assume control over litigation in which they have a
direct financial or proprietary interest and then seek
to redetermine issues previously resolved.” 440 U.S.
at 154. That the non-party in Montana (the United
States) exercised control over the prior litigation was
not in dispute: the U.S. required the first suit to be
filed; reviewed and approved the complaint; paid the
attorneys’ fees and costs; directed the appeal to the
State Supreme Court, and appeared and submitted
an amicus brief; and directed the filing of a notice of
appeal to the Supreme Court and effectuated
abandonment of that appeal. Id. at 155. “Thus,
although not a party, the United States plainly had a
sufficient ‘laboring oar’ in the conduct of the statecourt litigation to actuate principles of estoppel.” Id.

1

“Privity” sometimes collectively refers to the “substantive
legal relationships justifying preclusion.” Taylor, 553 U.S. at
894 n.8. “Privity” has come to be more broadly used “as a way to
express the conclusion that nonparty preclusion is appropriate
on any ground.” Id. “Privity...is not a result of parties having
similar objectives in an action but of the relationship of the
parties to the action and the commonality of their interests.”
Hall, 194 Ariz. at 58, 977 P.2d at 780 (emphasis in original).

98a
In support of its analysis, Montana cited § 83 of the
Restatement (Second) of Judgments (Tent. Draft No.
2, 1975) (“Restatement”), which provided:2
A person who is not a party to an action but who
controls or substantially participates in the control of
the presentation on behalf of a party is bound by the
determination of issues decided as though he were a
party.
440 U.S. at 154-55. Taylor cited this section as
well, noting that a non-party who has had the
opportunity to present proofs and argument has had
his day in court, even though he was not a formal
party to the litigation. 553 U.S. at 895, quoting
Restatement cmt. a.3
This Restatement section was also support for the
holding in Indus. Park Corp. v. U.S.I.F. Palo Verde
Corp., 26 Ariz. App. 204, 547 P.2d 56 (1976). At issue
in Indus. Park was whether the claims of the
principal shareholder of a corporation were barred by
the judgment entered in the prior litigation against
the corporation. The Court of Appeals concluded that
they were not because the record did not show that
the shareholder in fact controlled the prior litigation.
Id. at 209, 547 P.2d at 61 (shareholder “could not
attack the validity or enforcement of the judgment”
against the corporation). Of relevance here, the court
specifically cited to comment c to the Restatement,
which provides:
2

Montana noted that the term “privies” denoting non-parties
who control litigation had been abandoned in this section of the
Second Restatement. 440 U.S. at 154 n.5.
3

Taylor actually cited to Restatement (Second) of Judgments
§ 39 (1980), which corresponds to § 83 of the tentative draft.

99a
Elements of control. To have control of litigation
requires that a person have effective choice as to the
legal theories and proofs to be advanced in behalf of
the party to the action. He must also have control
over the opportunity to obtain appellate review.4...It
is sufficient that the choices were in the hands of
counsel responsible to the controlling person;
moreover, the requisite opportunity may exist even
when it is shared with other persons. It is not
sufficient, however, that the person merely
contributed funds or advice in support of the party....
Indus. Park, id. at 209 n.4, 547 P.2d at 61 n.4.
Adequate Representation.
Taylor held that representation is “adequate” for
purposes of non-party preclusion if (1) the interests
of the party and the non-party are aligned, and (2)
either the party understood himself to be acting in a
representative capacity or the original court took
care to protect the non-party’s interests. 553 U.S. at
900, citing Richards, 517 U.S. at 801-02; Hansberry
v. Lee, 311 U.S. 32, 43 (1940).5 In Taylor, the Court
found nothing in the record to indicate that the party
understood himself to be suing on the non-party’s
behalf, that the non-party even knew of the suit, or
that the original court took special care to protect the
non-party’s interests; thus, preclusion was not
justified on the theory that the non-party had been
adequately represented in the original suit. 553 U.S.
at 905.
4

In this sentence in comment c to Restatement (Second) of
Judgments § 39 (1980), the word “appellate” is omitted.
5

In some cases, notice of the original suit to the non-party is
required. Taylor, 553 U.S. at 900.

100a
II.
Initially, the Court does not find that Plaintiffs
“assumed control” of the MDL action for the purposes
of preclusion. Of particular relevance in both
Montana and Indus. Park was that the non-party’s
“control” extend to appeal from or review of the
judgment in the first action. Montana, 440 U.S. at
155; Indus. Park, 26 Ariz. App. at 209, 547 P.2d at
61. Both Montana and Indus. Park relied on the
Restatement, the comment to which indicates that
the requisite control must include control over the
opportunity for appellate review. Montana, id.;
Indus. Park, id. Plaintiffs argue that any such
control they might have had over the MDL action did
not extend to control over the decision whether to
appeal Judge Hornby’s Order; indeed, at oral
argument on this Motion, Plaintiffs’ counsel asserted
that Plaintiffs would have appealed that order had
they been able to do so. Defendants do not argue to
the contrary.6
However, the Court does find that Plaintiffs were
adequately represented in the MDL action.
First, the interests of the federal plaintiffs and
Plaintiffs here are aligned. Taylor, 553 U.S. at 900.
Plaintiffs make the same claims under the same
6

To this extent, the Court disagrees with Judge McShane,
who concluded that the Minnesota plaintiffs controlled the
MDL action. Lerfald v. Gen’l Motors Corp., Case No. 27-CV-033327 (Minn. Dis. Ct. Sept. 16, 2010) (Order at 4). Judge
McShane relied on Margo-Kraft Distribs., Inc. v. Minneapolis
Gas Co., 200 N.W.2d 45, 48-49 (Minn. 1972). In that case, with
facts more akin to Montana, the non-party directed the
plaintiffs’ motion for new trial and itself moved for new trial as
a victorious third-party defendant in the first action. Id.

101a
Arizona statute against the same defendants, based
on the same legal theory and record, as the plaintiffs
in the MDL action. Plaintiffs coordinated discovery
with the federal plaintiffs, including sharing of costs
and fees. Even Plaintiffs do not seriously contend
that the relationship of all plaintiffs to the actions
and the commonality of their interests do not
demonstrate alignment of interests. See Hall, 194
Ariz. at 58, 977 P.2d at 780.
Second, the federal Plaintiffs clearly understood
themselves to be acting in a representative capacity
and Judge Hornby took care to protect Plaintiffs
interests. Taylor, 553 U.S. at 900. It is in this regard
that Plaintiffs’ counsel’s “control” in the MDL action
is more directly relevant. Plaintiffs’ counsel appeared
on Plaintiffs’ behalf in the MDL action and were part
of a joint prosecution agreement, which was intended
to protect the interests of all plaintiffs. This
agreement
evidences
Plaintiffs’
counsel’s
involvement, in coordination with the federal
plaintiffs, in how the MDL action was conducted,
which involvement was endorsed by Judge Hornby.
Plaintiffs chose to litigate their claims in the MDL
action rather than moving to dismiss without
prejudice as the California plaintiffs did; that Judge
Hornby granted the California plaintiffs’ motion
further indicates his care in protecting the interests
of the state plaintiffs. 7 Plaintiffs’ counsel litigated
the MDL summary judgment motion as Plaintiffs’

7

That Plaintiffs may have opposed Judge Hornby’s exercise of
supplemental jurisdiction is not dispositive. Plaintiffs did not
move to withdraw their claims. Had Judge Hornby denied such
a motion, Plaintiffs’ position would have more merit.

102a
Coordinated Action Counsel. 8 After Judge Hornby
granted the motion for summary judgment,
Plaintiffs’ counsel averred they had been involved
not only on summary judgment, but also regarding
class action, discovery, and settlement issues. 9 In
sum, not only were the federal plaintiffs and Judge
Hornby aware of their obligations to Plaintiffs, but
Plaintiffs’ own counsel could ensure Plaintiffs’
interests were protected. The Court agrees that it is
difficult to imagine a more compelling case for
preclusion based on adequate representation.
Plaintiffs argue that, absent class certification in
the MDL action, Judge Hornby’s Order only disposed
of the claims of the named plaintiffs in the MDL
action. 632 F. Supp. 2d at 51 n.13. However,
Defendants do not argue Plaintiffs are bound by
Judge Hornby’s Order based on their status as
absent class members. As Taylor recognized, a
properly conducted class action is only one “certain
limited circumstance” by which a non-party may be
precluded based on adequate representation. 553
U.S. at 894, 900-01. Further, Plaintiffs’ argument
that preclusion should not apply for equitable
reasons because Judge Hornby’s Order was based on
a dubious First Circuit decision on class certification
8

The Court agrees with Defendants that placement and
formatting of the signature blocks indicates that Plaintiffs’
Coordination Action Counsel endorsed the argument made on
behalf of these Plaintiffs, as did the Executive Committee and
Additional Plaintiffs Counsel on behalf of theirs.
9

At oral argument, Defendants read into the record
statements to this effect filed by Plaintiffs’ counsel in the MDL
action, including a statement from Kathleen Konopka from the
Cohen, Milstein law firm. Plaintiffs did not dispute the truth of
these statements or argue their irrelevance on this issue.

103a
is nothing more than a plea for a second bite at the
apple.
Because Plaintiffs were adequately represented in
the MDL action, res judicata bars Plaintiffs from
relitigating their claims in this Court. Defendants
are entitled to entry of judgment in their favor.
Accordingly,
IT IS ORDERED granting Non-Settling, NonBankrupt Defendants’ Motion For Entry of
Judgment.
IT IS FURTHER ORDERED that Plaintiff shall
submit a proposed form of judgment in conformity
with this Court’s order and in conformity with
A.R.C.P., Rule 58.
Dated: March 1, 2011
/ s / HONORABLE J. RICHARD GAMA
JUDICIAL OFFICER OF THE SUPERIOR
COURT

